IN THE SUPREME COURT OF THE UNITED STATES
_______________
No. 19A184
DOUGLAS BROWNBACK AND TODD ALLEN,
APPLICANTS
v.
JAMES KING
_______________
APPLICATION FOR A FURTHER EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
_______________
Pursuant to Rules 13.5 and 30.3 of the Rules of this Court,
the Solicitor General, on behalf of Special Agent Douglas Brownback
of the Federal Bureau of Investigation and Detective Todd Allen of
the City of Grand Rapids Police Department, respectfully requests
a further, 30-day extension of time, to and including October 25,
2019, within which to file a petition for a writ of certiorari to
review the judgment of the United States Court of Appeals for the
Sixth Circuit in this case.

The court of appeals entered its

judgment on February 25, 2019, and denied rehearing en banc on May
28, 2019.

By order dated August 18, 2019, Justice Sotomayor

extended the time within which to file a petition for a writ of
certiorari to September 25, 2019.

The jurisdiction of this Court

2
would be invoked under 28 U.S.C. 1254(1).

The opinion of the court

of appeals (App., infra, 1a-29a) is reported at 917 F.3d 409.

The

court’s order denying rehearing (App., infra, 30a) is unreported.
1.

This case arises from a violent altercation between

respondent James King and Special Agent Brownback and Detective
Allen, during which respondent alleged that the officers committed
various intentional torts and violated his constitutional rights. *
Respondent brought damages claims against the United States under
the Federal Tort Claims Act (FTCA), 28 U.S.C. 1346 (2012 & Supp.
III 2015) and 28 U.S.C. 2671-2680, as well as against the officers
under Bivens v. Six Unknown Named Agents of Federal Bureau of
Narcotics, 403 U.S. 388 (1971).

This case involves the interplay

between those claims, and specifically the operation of the FTCA’s
judgment-bar provision in 28 U.S.C. 2676.
a.

The FTCA waives the sovereign immunity of the United

States, creates a cause of action, and confers exclusive federalcourt jurisdiction for claims that fall within the statute’s terms.
See 28 U.S.C. 1346; FDIC v. Meyer, 510 U.S. 471, 477 (1994).

The

Respondent’s lawsuit concerns the officers’ work on a
joint fugitive task force involving the FBI and the Grand Rapids
Police Department. The district court and the court of appeals
determined that both officers should be treated as federal
employees for purposes of this case, because Brownback was an FBI
employee, and Allen -- although employed by Grand Rapids -- was a
deputized federal agent working full time on a task force that was
directed by the FBI. See 917 F.3d at 432-434; No. 16-cv-343, 2017
WL 6508182, at *4-*6.
*

3
FTCA provides that the remedy provided by Section 1346(b) “is
exclusive of any other civil action or proceeding for money damages
by reason of the same subject matter against the employee whose
act or omission gave rise to the claim,” 28 U.S.C. 2679(b)(1), but
that limitation “does not extend or apply to a civil action against
an employee of the Government

* * *

which is brought for a

violation of the Constitution of the United States,” 28 U.S.C.
2679(b)(2)(A).

A person who alleges a personal injury arising

from a constitutional violation by federal employees is thus
permitted to plead both an FTCA claim against the United States
and a Bivens claim against the employees.
The FTCA also imposes a judgment bar, which provides that
“[t]he judgment in an action under section 1346(b) of this title
shall constitute a complete bar to any action by the claimant, by
reason of the same subject matter, against the employee of the
government whose act or omission gave rise to the claim.”
U.S.C. 2676.

28

This Court has interpreted the judgment bar to mean

that, “once a plaintiff receives a judgment (favorable or not) in
an FTCA suit, he generally cannot proceed with a suit against an
individual employee based on the same underlying facts.”

Simmons

v. Himmelreich, 136 S. Ct. 1843, 1847 (2016).
b.

Respondent

filed

this

lawsuit

against

following an altercation with them in July 2014.

the

officers

It occurred when

the officers stopped respondent on the street on suspicion that he

4
was a fugitive, questioned him, and performed a pat-down search
after he admitted that he was carrying a pocket knife.

It is

undisputed that respondent fled from the officers during the patdown search and, upon being tackled, violently resisted arrest,
causing the officers to use physical force to subdue respondent,
injuring him.

917 F.3d at 417.

As relevant here, respondent sued

the United States under the FTCA, alleging six intentional torts,
and sued the officers under Bivens, alleging an unreasonable search
and seizure and that the officers had used unconstitutionally
excessive force against him.
The defendants moved to dismiss the complaint on two grounds:
lack of subject-matter jurisdiction and failure to state a claim
upon which relief can be granted. In the alternative, the officers
moved for summary judgment. The district court granted the motion.
No. 16-cv-343, 2017 WL 6508182.

First, the court held that

respondent could not proceed on his Bivens claims because he had
failed to allege or introduce facts sufficient to show that the
officers violated his constitutional rights, either by engaging in
an unreasonable search or seizure or by using excessive force.
Id. at *7-*10.
entitled

to

Second, the court held that the United States was
judgment

on

respondent’s

FTCA

claim,

because

respondent had failed to allege or introduce facts sufficient to
show that the officers’ actions could support “liab[ility] to the
claimant in accordance with the law of the place where the act or

5
omission occurred.”
*13-*15.

28 U.S.C. 1346(b)(1); see 2017 WL 6508182, at

Specifically, the court determined that, under Michigan

law, the officers’ actions were undertaken “within the scope of
their authority”; “in good faith, or were not undertaken with
malice”; and “were discretionary, as opposed to ministerial.” 2017
WL 6508182, at *14.
2.
opinion.
a.

The court of appeals reversed in a partially divided
917 F.3d 409.
Respondent’s appeal contested only the dismissal of his

Bivens claims against the officers.

See Resp. C.A. Br. 18 n.5

(“[Respondent] has decided not to pursue his claims against the
United States on appeal.”).

As a result, the United States was

“not part[y] to th[e] appeal,” 917 F.3d at 416, and the FTCA
judgment became final.

The officers accordingly argued on appeal

that respondent’s Bivens claims were now precluded by the FTCA
judgment bar, because those claims arose from “the same subject
matter” as his FTCA claim and were pleaded against the same
governmental employees “whose act or omission gave rise to the
[FTCA] claim.”

28 U.S.C. 2676.

As relevant here, the panel majority rejected the officers’
argument that the judgment bar foreclosed respondent’s Bivens
claims.

917 F.3d at 418-421.

The majority observed that the FTCA

enacts a limited waiver of the federal government’s sovereign
immunity, and “[s]overeign immunity is jurisdictional in nature.”

6
Id. at 418 (citing Meyer, 510 U.S. at 475).

The majority therefore

reasoned that, if a plaintiff’s FTCA claim “fails to satisfy” the
required statutory elements, it “does not fall within the FTCA’s
‘jurisdictional grant.’”
at 477).

Id. at 418-419 (quoting Meyer, 510 U.S.

In the majority’s view, “[b]ecause [respondent] failed

to state a FTCA claim,” the district court must have “lacked
subject-matter

jurisdiction

over

[his]

FTCA

claim,”

and

the

district court’s judgment “was not a disposition on the merits.”
Id. at 419-420.
The panel majority then invoked Himmelreich v. Federal Bureau
of Prisons, 766 F.3d 576 (6th Cir. 2014) -- which this Court
affirmed on different reasoning in Simmons, 136 S. Ct. at 1843 -for the proposition that “[a] dismissal for lack of subject-matter
jurisdiction does not trigger the § 2676 judgment bar” because “in
the absence of jurisdiction, the court lacks the power to enter
judgment.”
that

917 F.3d at 419 (quoting 766 F.3d at 579).

principle

here,

the

panel

majority

concluded

Applying
that

“the

district court’s dismissal of respondent’s FTCA claim ‘does not
trigger the § 2676 judgment bar.’”
b.

Ibid. (citation omitted).

Judge Rogers dissented in relevant part.

He reasoned

that “merits determinations under the FTCA are jurisdictional in
that they implicate the sovereign immunity of the United States,”
but a dismissal for failure to state a claim under the FTCA is
still a “‘judgment’” within the meaning of 28 U.S.C. 2676.

917

7
F.3d at 434.

Judge Rogers noted that “the district court’s

dismissal of [respondent’s] FTCA claims was based on an assessment
of their merits” in light of Michigan law.

Id. at 435.

And this

Court in Simmons, Judge Rogers explained, held that the judgment
bar

applies

when

an

FTCA

claim

is

dismissed

“‘because

[the

plaintiff] simply failed to prove his claim.’” Id. at 434 (quoting
136 S. Ct. at 1849).

In that circumstance, “‘it would make little

sense to give [the plaintiff] a second bite at the money-damages
apple by allowing suit against the employees’ to proceed.”
434-435

(quoting

Simmons,

136

S.

Ct.

at

1849)

Id. at

(brackets

in

original). Judge Rogers noted that the majority’s reasoning “would
effectively nullify the judgment bar” in all cases “where the FTCA
judgment was in favor of the government,” including even cases in
which a plaintiff lost on an FTCA claim at trial, which is exactly
the result that this Court expressly rejected in Simmons.

Id. at

435.
3.

The Solicitor General has not yet determined whether to

file a petition for a writ of certiorari in this case on behalf of
the

officers.

Moreover,

the

attorneys

with

principal

responsibility for preparation of the officers’ petition have been
heavily engaged with the press of previously assigned matters with
proximate

due

dates.

The

additional

time

sought

in

this

application is needed to assess the legal and practical impact of

8
the court of appeals’ ruling.

Additional time is also needed, if

a petition will be filed, to permit its preparation and printing.
Respectfully submitted.
NOEL J. FRANCISCO
Solicitor General
SEPTEMBER 2019

409

KING v. U.S.
Cite as 917 F.3d 409 (6th Cir. 2019)

tion to find facts and judge their import
under the § 3553(a) factors.’’71
[34] To rebut the presumption, a defendant must show one of three things: (1)
the court failed to consider a factor that it
should’ve given significant weight; (2) the
court gave significant weight to an irrelevant or improper factor; or (3) the court
clearly erred in balancing sentencing factors.72
[35] Raheem argues that his sentence
exceeds the aim of the § 3553(a) sentencing factors. But his sentence was withinGuidelines. So it’s presumed reasonable.
And here, Raheem hasn’t rebutted that
presumption.

Yes, Raheem’s within-Guidelines sentence
is severe. But the district court weighed
the appropriate factors. And its sentence
isn’t substantively unreasonable. The district court also grounded Mewase’s sentence in an in-depth consideration of the
§ 3553 factors. So neither sentence is substantively unreasonable.
IV.

The district court committed no error,
and we AFFIRM in all respects.

,

The district court detailed its justifications and discussed the § 3553(a) factors.
The court noted that Raheem was ‘‘a leader or organizer’’ in ‘‘a broad and widereaching and extensive conspiracy involving criminal conduct that went on for a
number of years’’; one that ‘‘involved the
manipulation and taking advantage of,
whether financially or otherwise, a large
number of victims.’’
[36] Mewase argues that his sentence
is unreasonable because of ‘‘unwarranted
sentencing disparities’’ between him and
some coconspirators who pleaded guilty.
But this doesn’t rebut the presumption of
reasonableness either. Mewase offers no
proof that he was so similarly situated to
coconspirators who received lesser sentences that the disparities are ‘‘unwarranted.’’ Nor does the PSR suggest that. Rather, many other coconspirators played much
smaller roles, accepted responsibility, or
cooperated with the Government.
In sum, we have consistently declined to
merely reweigh the sentencing factors.
71. United States v. Scott, 654 F.3d 552, 555
(5th Cir. 2011) (internal quotation marks and
citation omitted).

CONCLUSION

James KING, Plaintiff-Appellant,
v.
UNITED STATES of America,
et al., Defendants,
Douglas Brownback; Todd Allen,
Defendants-Appellees.
No. 17-2101
United States Court of Appeals,
Sixth Circuit.
Argued: August 1, 2018
Decided and Filed: February 25, 2019
Background: Arrestee brought action
against city and police officers and FBI
agent, alleging violations of the Fourth
Amendment, as well as claims under the
Federal Tort Claims Act (FTCA). The
United States District Court for the Western District of Michigan, Janet T. Neff, J.,
No. 1:16-cv-00343, 2017 WL 6508182,
72.

(1a)

Id.

2a
410

917 FEDERAL REPORTER, 3d SERIES

granted summary judgment for defendants. Arrestee appealed.
Holdings: The Court of Appeals, Clay,
Circuit Judge, held that:
(1) FTCA judgment bar did not preclude
arrestee from pursuing other claims;
(2) genuine issue of material fact existed
as to whether reasonable officer could
conclude arrestee resembled photographs of criminal suspect;
(3) detective removing arrestee’s wallet
from his pocket during protective
search was unreasonable;
(4) genuine issue of material fact existed
as to whether arrestee reasonably believed he was being mugged;
(5) police did not use excessive force by
continuing to use violent force after
subduing arrestee;
(6) genuine issue of material fact existed
as to whether police used excessive
force in subduing arrestee; and
(7) claims against detective were required
to be brought pursuant to Bivens,
rather than § 1983.
Reversed, vacated, and remanded.
Rogers, Circuit Judge, filed a dissenting
opinion.
1. Federal Courts O3625(2)
An appellate court reviews the application of the Federal Tort Claims Act
(FTCA) judgment bar de novo.
28
U.S.C.A. § 2676.
2. United States O424
Absent a waiver, sovereign immunity
shields the Federal Government and its
agencies from suit.
3. United States O421
Sovereign immunity is jurisdictional in
nature.

4. United States O872, 876
A claim comes within Federal Tort
Claims Act (FTCA) jurisdictional grant
only if it is: [1] against the United States,
[2] for money damages, [3] for injury or
loss of property, or personal injury or
death [4] caused by the negligent or
wrongful act or omission of any employee
of the Government [5] while acting within
the scope of his office or employment, [6]
under circumstances where the United
States, if a private person, would be liable
to the claimant in accordance with the law
of the place where the act or omission
occurred. 28 U.S.C.A. § 1346(b).
5. United States O872
A dismissal for lack of subject-matter
jurisdiction does not trigger the judgment
bar of the Federal Tort Claims Act
(FTCA); in the absence of jurisdiction, the
court lacks the power to enter judgment.
28 U.S.C.A. § 2676.
6. United States O953
District court’s dismissal of arrestee’s
Federal Tort Claims Act (FTCA) claims
against police officers for failing to state a
claim under Michigan law was a dismissal
for lack of subject-matter jurisdiction, and
therefore, FTCA judgment bar did not
preclude arrestee from pursuing other
claims relating to same incident with police; stating a claim under state law was a
jurisdictional requirement of the FTCA
claims. 28 U.S.C.A. §§ 1346(b), 2676.
7. United States O874
The Federal Tort Claims Act (FTCA)
waives sovereign immunity where state
law would impose liability against a private
individual. 28 U.S.C.A. § 1346(b).
8. Public Employment O934
Under Michigan law, a government
employee is entitled to qualified immunity
for intentional torts if he or she establishes
that: (1) the employee’s challenged acts

3a

KING v. U.S.
Cite as 917 F.3d 409 (6th Cir. 2019)

were undertaken during the course of employment and that the employee was acting, or reasonably believed he was acting,
within the scope of his authority, (2) the
acts were undertaken in good faith, and (3)
the acts were discretionary, rather than
ministerial, in nature.
9. Federal Courts O2028
If a federal court lacks subject-matter
jurisdiction, it lacks the power to hear a
case.
10. United States O872
Stating a claim under state law is a
jurisdictional prerequisite without which
the waiver of sovereign immunity in the
Federal Tort Claims Act (FTCA) does not
apply. 28 U.S.C.A. § 1346(b).
11. Federal Courts O3604(4)
An appellate court reviews a grant or
denial of summary judgment de novo, using the same standard as the district court.
12. Federal Civil Procedure O2543
In deciding a motion for summary
judgment, a court views the factual evidence and draws all reasonable inferences
in favor of the non-moving party.

411

ty’s case, and on which that party will bear
the burden of proof at trial.
16. Civil Rights O1376(2)
The doctrine of qualified immunity
shields government officials from liability
for civil damages if their actions did not
violate clearly established statutory or constitutional rights of which a reasonable
person would have known.
17. Civil Rights O1376(1, 2)
The qualified immunity analysis involves a two-step inquiry: (1) whether,
viewing the record in the light most favorable to the plaintiff, a constitutional right
has been violated; and (2) whether the
right at issue was clearly established at
the time the constitutional violation occurred.
18. Searches and Seizures O24
A warrantless search or seizure is per
se unreasonable under the Fourth Amendment, subject only to a few specifically
established and well-delineated exceptions.
U.S. Const. Amend. 4.
19. Arrest O57.1

A mere scintilla of evidence is insufficient to defeat summary judgment; there
must be evidence on which the jury could
reasonably find for the non-movant.

There are three types of reasonable,
and thus permissible, warrantless encounters between the police and citizens: (1)
consensual encounters, which may be initiated by a police officer based on a mere
hunch or without any articulable reason
whatsoever; (2) investigative stops, that is,
Terry stops, which are temporary, involuntary detentions that must be predicated
upon reasonable suspicion; and (3) arrests,
which must be based upon probable cause.
U.S. Const. Amend. 4.

15. Federal Civil Procedure O2466

20. Arrest O60.1(2), 60.2(10)

Entry of summary judgment is appropriate against a party who fails to make a
showing sufficient to establish the existence of an element essential to that par-

An individual is free to ignore the
police and go about his or her business,
unless a police officer has at least reasonable suspicion that the individual has com-

13. Federal Civil Procedure O2546
In order to defeat a motion for summary judgment, a non-movant must show
sufficient evidence to create a genuine issue of material fact.
14. Federal Civil Procedure O2546

4a
412

917 FEDERAL REPORTER, 3d SERIES

mitted, or is about to commit, a crime.
U.S. Const. Amend. 4.
21. Arrest O65
Arrest warrants in the hands of a
police officer, unless facially invalid, are
presumed valid. U.S. Const. Amend. 4.
22. Arrest O65
Police and correction employees may
rely on facially valid arrest warrants even
in the face of vehement claims of innocence
by reason of mistaken identity or otherwise. U.S. Const. Amend. 4.
23. Arrest O63.4(1)
When the police have probable cause
to arrest one party, and when they reasonably mistake a second party for the first
party, then the arrest of the second party
is a valid arrest. U.S. Const. Amend. 4.
24. Arrest O60.2(10)
If police have a reasonable suspicion,
grounded in specific and articulable facts,
that a person they encounter was involved
in or is wanted in connection with a completed felony, then a Terry stop may be
made to investigate that suspicion. U.S.
Const. Amend. 4.
25. Arrest O60.2(10)
‘‘Reasonable suspicion’’ for a Terry
stop is more than a mere hunch, but is
satisfied by a likelihood of criminal activity
less than probable cause, and falls considerably short of satisfying a preponderance
of the evidence standard. U.S. Const.
Amend. 4.
See publication Words and Phrases
for other judicial constructions and
definitions.

26. Arrest O60.2(10)
If an officer possesses a particularized
and objective basis for suspecting a particular person based on specific and articulable facts, he may conduct a Terry stop.
U.S. Const. Amend. 4.

27. Federal Civil Procedure O2491.5
Genuine issue of material fact existed
as to whether reasonable officer could conclude pedestrian resembled photographs of
criminal suspect, precluding summary
judgment on the basis of qualified immunity in pedestrian’s § 1983 action alleging
violations of the Fourth Amendment after
he was stopped by police. U.S. Const.
Amend. 4; 42 U.S.C.A. § 1983.
28. Searches and Seizures O23
Certainty is not the touchstone of reasonableness under the Fourth Amendment
and the reasonableness inquiry includes
some latitude for honest mistakes in the
difficult task of finding and arresting fugitives. U.S. Const. Amend. 4.
29. Searches and Seizures O23
The ultimate touchstone of the Fourth
Amendment is reasonableness, but this
standard does not become more forgiving
as the quality of evidence or of police work
decreases. U.S. Const. Amend. 4.
30. Arrest O60.2(11), 63.4(12)
Searches and Seizures O25.1
As a description of a suspect becomes
less reliable, due to the passage of time or
otherwise, an officer’s reliance on that description becomes objectively less reasonable and less likely to support a warrantless detention, arrest, or search. U.S.
Const. Amend. 4.
31. Arrest O63.4(2)
When officers mistake a person for a
criminal suspect, the officers’ subjective
good-faith belief is irrelevant when determining validity of arrest; the mistake must
be understandable and based on sufficient
probability. U.S. Const. Amend. 4.
32. Arrest O60.2(20)
Detective removing arrestee’s wallet
from his pocket during Terry protective

5a

KING v. U.S.
Cite as 917 F.3d 409 (6th Cir. 2019)

search was unreasonable in violation of the
Fourth Amendment, where detective conducted frisk for weapons, detective felt
object that felt like a wallet, object looked
like wallet and was in location where a
wallet would be expected, and there was
no suspicion that object was anything other than a wallet. U.S. Const. Amend. 4.
33. Arrest O60.2(19)
For a protective search conducted
during a Terry stop to be reasonable, the
police officer must reasonably suspect that
the person stopped is armed and dangerous. U.S. Const. Amend. 4.
34. Arrest O60.2(19)
To conduct a protective search during
a Terry stop, an officer must be able to
point to particular facts from which he
reasonably inferred that the individual was
armed and dangerous; based on such suspicion, the officer may conduct a limited
search for concealed weapons.
U.S.
Const. Amend. 4.
35. Arrest O60.2(20)
Terry allows only an examination for
concealed objects and forbids searching for
anything other than weapons. U.S. Const.
Amend. 4.
36. Arrest O60.2(20)
If a protective search goes beyond
what is necessary to determine if a suspect
is armed, it is no longer valid under Terry.
U.S. Const. Amend. 4.
37. Arrest O60.2(20)
Under the plain touch doctrine: if a
police officer lawfully pats down a suspect’s outer clothing and feels an object
whose contour or mass makes its identity
immediately apparent, there has been no
invasion of the suspect’s privacy beyond
that already authorized by the officer’s
search for weapons; if the object is contraband, its warrantless seizure would be jus-

413

tified by the same practical considerations
that inhere in the plain-view context. U.S.
Const. Amend. 4.
38. Searches and Seizures O47.1
In assessing whether an object’s incriminatory nature is immediately apparent for purposes of the plain touch doctrine, a court must look to three factors,
none of which is necessary but each of
which is instructive: (1) a nexus between
the seized object and the suspected criminal activity; (2) whether the intrinsic nature or appearance of the seized object
gives probable cause to believe that it is
associated with criminal activity; and (3)
whether the executing officers can at the
time of discovery of the object on the facts
then available to them determine probable
cause of the object’s incriminating nature.
U.S. Const. Amend. 4.
39. Federal Civil Procedure O2491.5
Genuine issue of material fact existed
as to whether arrestee reasonably believed
he was being mugged rather than being
detained by police officers, precluding
summary judgment in § 1983 action alleging violations of the Fourth Amendment
after officers stopped arrestee from attempting to flee. U.S. Const. Amend. 4;
42 U.S.C.A. § 1983.
40. Arrest O68.1(4)
Constitutional Law O4537
Sentencing and Punishment O1548
An excessive force claim may be analyzed under the Fourth, Eighth, or Fourteenth Amendment; the applicable amendment depends on the plaintiff’s status at
the time of the incident, that is, a free
citizen in the process of being arrested or
seized, a convicted prisoner, or someone in
gray areas around the two. U.S. Const.
Amends. 4, 8, 14.

6a
414

917 FEDERAL REPORTER, 3d SERIES

41. Arrest O60.2(14), 68.1(4)
Where a free citizen claims that a
government actor used excessive force
during the process of an arrest, seizure, or
investigatory stop, the applicable analysis
is governed by the Fourth Amendment.
U.S. Const. Amend. 4.

rather than with the 20/20 vision of hindsight. U.S. Const. Amend. 4.
48. Arrest O68.1(4)

The right to be free from the excessive use of force is a clearly established
Fourth Amendment right. U.S. Const.
Amend. 4.

The analysis of whether an officer’s
use of force was reasonable is guided by
the following three factors: (1) the severity
of the crime at issue; (2) whether the
suspect posed an immediate threat to the
safety of the officers or others; and (3)
whether the suspect was actively resisting
arrest or attempting to evade arrest by
flight.

43. Arrest O68.1(4)

49. Arrest O68.1(4)

Not every push or shove, even if it
may later seem unnecessary in the peace
of a judge’s chambers, violates the Fourth
Amendment. U.S. Const. Amend. 4.

Excessive force cases typically require
a court to analyze the events in segments.
U.S. Const. Amend. 4.

44. Arrest O68.1(4)

Police did not use excessive force by
continuing to use violent force after subduing arrestee, as would violate the Fourth
Amendment, where police were unable to
gain control of arrestee until a pedestrian
controlled arrestee’s legs, and three people
struggled to subdue him. U.S. Const.
Amend. 4.

42. Civil Rights O1376(6)

The question about police use of force
is whether the officers’ actions were objectively reasonable in light of the facts and
circumstances confronting them, without
regard to their underlying intent or motivation. U.S. Const. Amend. 4.
45. Arrest O68.1(4)
The calculus of reasonableness of
force must embody allowance for the fact
that police officers are often forced to
make split-second judgments in circumstances that are tense, uncertain, and rapidly evolving about the amount of force
that is necessary in a particular situation.
U.S. Const. Amend. 4.
46. Arrest O68.1(4)
To determine whether a use of force
in a particular situation was reasonable, a
court must look to the totality of the circumstances. U.S. Const. Amend. 4.
47. Arrest O68.1(4)
A court analyzing the reasonableness
of a use of force must assume the perspective of a reasonable officer on the scene,

50. Arrest O68.1(4)

51. Arrest O68.1(4)
Any level of violent force that an officer uses against a subdued detainee is
excessive as a matter of clearly established
law. U.S. Const. Amend. 4.
52. Federal Civil Procedure O2491.5
Genuine issue of material fact existed
as to whether police used excessive force
in subduing arrestee, precluding summary
judgment in § 1983 action alleging violations of the Fourth Amendment. U.S.
Const. Amend. 4; 42 U.S.C.A. § 1983.
53. Obstructing Justice O126(2)
It is impossible to resist an arrest or
detention without knowing that an arrest
or detention is being attempted. U.S.
Const. Amend. 4.

7a

KING v. U.S.
Cite as 917 F.3d 409 (6th Cir. 2019)

54. Arrest O68.1(4)
The use of a chokehold constitutes
deadly force. U.S. Const. Amend. 4.
55. Arrest O68.1(4)
When a suspect resists arrest by
wrestling himself free from officers and
running away, officers may reasonably use
force, but such conduct does not justify
deadly force, especially when the struggle
has concluded and the suspect is in flight.
U.S. Const. Amend. 4.

415

or by a person for whom the State is
responsible; and (2) the party charged with
the deprivation must be a person who may
fairly be said to be a state actor, which
may be because he is a state official, because he has acted together with or has
obtained significant aid from state officials,
or because his conduct is otherwise
chargeable to the State. 42 U.S.C.A.
§ 1983.
61. Civil Rights O1327

56. Arrest O68.1(4)
The use of a chokehold on an unresisting, and even an initially resistant, detainee constitutes excessive force. U.S. Const.
Amend. 4.

A defendant’s actions performed pursuant to a mixed federal and state program may be actions under color of state
law, for purposes of § 1983. 42 U.S.C.A.
§ 1983.

57. Federal Courts O3621
A court reviews de novo the purely
legal question of whether a cause of action
arises under § 1983 or instead as an implied right of action under Bivens. 42
U.S.C.A. § 1983.

62. Civil Rights O1327

58. Civil Rights O1304
To bring a claim under § 1983, the
plaintiff must allege: 1) the defendant acted under color of state law; and 2) the
defendant’s conduct deprived the plaintiff
of rights secured under federal law. 42
U.S.C.A. § 1983.
59. Civil Rights O1325
The ultimate issue in determining
whether a party is subject to liability under § 1983 is whether the alleged infringement of federal rights is fairly attributable
to the state. 42 U.S.C.A. § 1983.
60. Civil Rights O1325
The question of fair attribution, for
purposes of determining whether a party
is subject to liability under § 1983 involves
a two-step inquiry: (1) the deprivation
must be caused by the exercise of some
right or privilege created by the State or
by a rule of conduct imposed by the State

For purposes of § 1983, the evaluation
of whether particular conduct constitutes
action taken under the color of state or
instead federal law, must focus on the
actual nature and character of that action.
42 U.S.C.A. § 1983.
63. Civil Rights O1327
United States O1455(3)
Conduct by detective with city police
department in subduing and searching arrestee was fairly attributable only to the
United States, rather than the state, and
therefore, arrestee’s claims against detective alleging violations of the Fourth
Amendment were required to be brought
pursuant to Bivens, rather than § 1983;
detective was working full time for FBI
task force at time of the incident with
arrestee. U.S. Const. Amend. 4; 42
U.S.C.A. § 1983.

Appeal from the United States District
Court for the Western District of Michigan
at Grand Rapids. No. 1:16-cv-00343—Janet
T. Neff, District Judge.

8a
416

917 FEDERAL REPORTER, 3d SERIES

ARGUED: D. Andrew Portinga, MILLER JOHNSON, Grand Rapids, Michigan, for Appellant. Michael Shih,
UNITED STATES DEPARTMENT OF
JUSTICE, Washington, D.C., for Appellees. ON BRIEF: D. Andrew Portinga,
Patrick M. Jaicomo, MILLER JOHNSON, Grand Rapids, Michigan, for Appellant. Michael Shih, Mark B. Stern,
UNITED STATES DEPARTMENT OF
JUSTICE, Washington, D.C., for Appellees.
Before: BOGGS, CLAY, and ROGERS,
Circuit Judges.
CLAY, J., delivered the opinion of the
court in which BOGGS, J., joined.
ROGERS, J. (pp. 434–37), delivered a
separate dissenting opinion.
OPINION
CLAY, Circuit Judge.
James King (‘‘Plaintiff’’) appeals the district court’s order granting summary judgment 1 for Officers Todd Allen and Douglas
Brownback (together ‘‘Defendants’’) on
Plaintiff’s Fourth Amendment claims arising under 42 U.S.C. § 1983 or, alternatively, under the implied right of action set
forth in Bivens v. Six Unknown Fed. Narcotics Agents, 403 U.S. 388, 91 S.Ct. 1999,
29 L.Ed.2d 619 (1971). The district court
also granted summary judgment for two
additional defendants, including the United
States, who are not parties to this appeal.
With respect to Plaintiff’s § 1983 or Bivens claims, this Court REVERSES the
judgment of the district court for the reasons set forth below.
1.

The district court stated that it was dismissing Plaintiff’s claims ‘‘under Federal Rule[ ] of
Civil Procedure 12(b)(1) and (b)(6),’’ but that
it was also granting summary judgment for
Defendants ‘‘to the extent the Court deems it
necessary to review [Defendants’] arguments
under Rule 56.’’ (R. 91 at PageID #1006.)

BACKGROUND
A. Factual History
On July 18, 2014, Defendants were
searching for a criminal suspect named
Aaron Davison. Police believed that Davison had committed felony home invasion,
and the State of Michigan had issued a
warrant for his arrest. Defendants were
members of a ‘‘joint fugitive task force
between the FBI and the City of Grand
Rapids.’’ (R. 30 at PageID #108.) Defendant Allen was a detective with the Grand
Rapids Police and had been assigned to
the FBI task force full-time. Defendant
Brownback was a special agent with the
FBI. Neither officer was wearing a uniform as they conducted their search, but
both of them were wearing lanyards with
their badges displayed over their plainclothes.
Defendants knew that Davison was a 26
year-old white male between 5’109 and 6’39
tall with glasses; short, dark hair; and a
thin build. Defendants also knew that Davison had a habit of buying a soft drink
from a particular gas station every day
between 2:00 p.m. and 4:00 p.m. And Defendants had two photographs of Davison.
In the first photograph, the lighting was so
dark that Davison appeared as the silhouette of a man playing electric guitar. The
second photograph, a driver’s license photo, showed Davison’s face clearly, but the
photo was seven years old at the time of
the search.
Around 2:30 p.m., Defendants saw Plaintiff walking down the street in an area
near the gas station where Davison was
Because the district court did not explain this
ambiguity in its ruling, and because the district court explained that its decision ‘‘relies
on [the parties’] Joint Statement of Facts TTT
unless otherwise indicated,’’ (id. at 1002), the
Court treats the district court’s ruling as a
grant of summary judgment for Defendants.

9a

KING v. U.S.
Cite as 917 F.3d 409 (6th Cir. 2019)

known to buy his daily soft drinks. Although Plaintiff was actually a 21-year-old
college student who was walking between
his two summer jobs, Defendants thought
Plaintiff might be their suspect because
Plaintiff was a young white male between
5’109 and 6’39 and was wearing glasses.
From their unmarked vehicle, Defendants
studied Plaintiff’s face and decided that
there was a ‘‘good possibility’’ that he was
Davison. (R. 73 at Page ID #429–30.) Defendants parked near Plaintiff and approached him. According to Plaintiff, Defendants never identified themselves as
police officers. But Defendants assert that
Allen identified himself as a police officer
when he first approached Plaintiff.
Defendants started asking Plaintiff
questions. They asked Plaintiff who he
was, and Plaintiff truthfully answered that
his name was James. Defendants then
asked Plaintiff for identification, and Plaintiff said that he had none. Defendants told
Plaintiff to put his hands on his head and
to face their vehicle. Plaintiff later testified
that he complied because Defendants ‘‘had
small badges around their chest, and [he]
assumed [Defendants had] some sort of
authority.’’ (Id. at PageID #474, 477.) Defendants asked Plaintiff if he was carrying
any weapons, and Plaintiff told them that
he had a pocketknife. Detective Allen removed the pocketknife from Plaintiff’s
pocket, commented on the size of Plaintiff’s wallet, and then removed that, too,
from Plaintiff’s pocket. Plaintiff asked,
‘‘[a]re you mugging me?’’ and attempted to
run away, but Detective Allen tackled him,
grabbed Plaintiff’s neck, and pushed him
to the ground. (Id. at PageID #474.) Plaintiff yelled for help and begged passersby
to call the police. Detective Allen then put
Plaintiff in a chokehold, at which point,
Plaintiff claimed, he lost consciousness.
Several seconds later, when Plaintiff came
to, he bit into Detective Allen’s arm. Detective Allen then started punching Plain-

417

tiff in the head and face ‘‘as hard as [he]
could, as fast as [he] could, and as many
times as [he] could.’’ (Id. at PageID #433.)
Plaintiff attempted to escape and to fight
back and eventually released his bite. But
he could not get away; the fight continued
for over sixty seconds.
As Detective Allen continued to punch
Plaintiff in the head and face, several bystanders called the police and began filming the incident. Numerous police officers
arrived on the scene, one of whom ordered
the bystanders to delete their videos because the videos could reveal the identities
of undercover FBI agents. Some of the
bystanders deleted their videos, and footage of the actual altercation was never
discovered. The surviving footage from immediately after the incident includes one
bystander who can be heard saying, ‘‘I was
worriedTTTT They were out of control
pounding himTTTT They were pounding his
fa- -head for no reason; they were being
brutal.’’ (Ex. 6, Timestamp 0:47–1:11.) A
bystander who called 911 told the operator
‘‘[t]hey’re gonna kill this manTTTT We can’t
see the victim now. They’re over top of
him. They look like they’re suffocating
himTTTT I understand they have badges
on, but I don’t see no undercover police
cars, no other—backup, no nothing.’’ (Ex.
18, Timestamp 1:43–3:21.)
Plaintiff was transported from the scene
to the emergency room, where he received
medical treatment. The emergency room
doctors concluded that Plaintiff’s injuries
did not require him to be admitted for
further treatment, and they released him
with a prescription for painkillers. Upon
Plaintiff’s discharge, police arrested him
and took him to Kent County Jail. Plaintiff
spent the weekend in jail before posting
bail and visiting another hospital for further examination. Prosecutors pursued
charges against Plaintiff, but a jury acquitted him of all charges.

10a
418
B.

917 FEDERAL REPORTER, 3d SERIES

Procedural History

Plaintiff brought this suit alleging that
Defendants violated his clearly established
Fourth Amendment rights by conducting
an unreasonable seizure and by using excessive force. Plaintiff also asserted a
claim against the United States. The district court found that it lacked subjectmatter jurisdiction to hear Plaintiff’s claim
against the United States, and it granted
summary judgment for Defendants on the
basis that Defendants are entitled to qualified immunity. Plaintiff then filed this
timely appeal of his claims against Defendants.
DISCUSSION
A.

The Federal Tort Claims Act
Judgment Bar Does Not Preclude
Plaintiff’s Claims Against Defendants

The Court requested supplemental
briefing on whether the judgment bar of
the Federal Tort Claims Act (‘‘FTCA’’),
see 28 U.S.C. § 2676, prohibits Plaintiff
from maintaining his § 1983 or Bivens
claims against Defendants. After considering the parties’ arguments and examining
the governing statutes and case law, the
Court concludes that the FTCA does not
preclude Plaintiff’s claims.
1.
a.

Analysis

Standard of Review

[1] This Court reviews the application
of the FTCA judgment bar de novo. See
United States v. Kuehne, 547 F.3d 667, 678
(6th Cir. 2008) (‘‘Because this issue is a
matter of statutory interpretation, we conduct de novo review.’’ (quoting United
States v. VanHoose, 437 F.3d 497, 501 (6th
Cir. 2006))).

b.

Relevant Legal Principles

[2, 3] ‘‘Absent a waiver, sovereign immunity shields the Federal Government
and its agencies from suit.’’ F.D.I.C. v.
Meyer, 510 U.S. 471, 475, 114 S.Ct. 996,
127 L.Ed.2d 308 (1994) (citing Loeffler v.
Frank, 486 U.S. 549, 108 S.Ct. 1965, 100
L.Ed.2d 549 (1988)). Sovereign immunity is
jurisdictional in nature. Id.
[4] ‘‘In 1946, Congress passed the
FTCA, which waived the sovereign immunity of the United States for certain torts
committed by federal employees.’’ Id. at
475–76, 114 S.Ct. 996. The FTCA’s waiver
provides ‘‘subject matter jurisdiction for
plaintiffs to pursue state law tort claims
against the United States.’’ Milligan v.
United States, 670 F.3d 686, 692 (6th Cir.
2012) (citing 28 U.S.C. § 1346(b)(1)). ‘‘Section 1346(b) [of the FTCA] grants the federal district courts jurisdiction over a certain category of claims for which the
United States has waived its sovereign
immunity and ‘render[ed]’ itself liable.’’
Meyer, 510 U.S. at 477, 114 S.Ct. 996
(quoting Richards v. United States, 369
U.S. 1, 6, 82 S.Ct. 585, 7 L.Ed.2d 492
(1962)). ‘‘A claim comes within this jurisdictional grant’’ only if it is:
[1] against the United States, [2] for
money damages, TTT [3] for injury or
loss of property, or personal injury or
death [4] caused by the negligent or
wrongful act or omission of any employee of the Government [5] while acting
within the scope of his office or employment, [6] under circumstances where the
United States, if a private person, would
be liable to the claimant in accordance
with the law of the place where the act
or omission occurred.
Id. (quoting 28 U.S.C. § 1346(b)). If a
claim fails to satisfy these six elements, it
is not ‘‘cognizable’’ under § 1346(b) and
does not fall within the FTCA’s ‘‘jurisdictional grant.’’ Id.

11a

KING v. U.S.
Cite as 917 F.3d 409 (6th Cir. 2019)

The FTCA’s judgment bar provision
precludes a plaintiff from bringing additional claims concerning the ‘‘same subject
matter’’ as an FTCA claim after judgment
is entered on the FTCA claim. 28 U.S.C.
§ 2676.
[5] ‘‘A dismissal for lack of subjectmatter jurisdiction does not trigger the
§ 2676 judgment bar. Put bluntly, in the
absence of jurisdiction, the court lacks the
power to enter judgment.’’ Himmelreich v.
Fed. Bureau of Prisons, 766 F.3d 576, 579
(6th Cir. 2014); see also Meyer, 510 U.S. at
478, 114 S.Ct. 996 (holding that if a claim
‘‘is not cognizable under § 1346(b), the
FTCA does not constitute [a plaintiff’s]
‘exclusive’ remedy’’ because the FTCA’s
judgment bar does not apply).
c.

Application to the Matter at Hand

[6] As explained below, the district
court dismissed Plaintiff’s FTCA claim for
lack of subject-matter jurisdiction. Because the district court did not reach the
merits of Plaintiff’s FTCA claim, the
FTCA’s judgment bar does not preclude
Plaintiff from pursuing his claims against
Defendants.
[7, 8] ‘‘The FTCA waives sovereign immunity where state law would impose liability against a private individual.’’ Milligan, 670 F.3d at 692 (citing Myers v.
United States, 17 F.3d 890, 894 (6th Cir.
1994)). Under Michigan law, a government
employee is entitled to qualified immunity
for intentional torts if he or she establishes that:
(1) the employee’s challenged acts were
undertaken during the course of employment and that the employee was acting,
or reasonably believed he was acting,
within the scope of his authority, (2) the
acts were undertaken in good faith, and
(3) the acts were discretionary, rather
than ministerial, in nature.

419

Odom v. Wayne Cty., 482 Mich. 459, 760
N.W.2d 217, 218 (2008) (adopting test articulated in Ross v. Consumers Power Co.,
420 Mich. 567, 363 N.W.2d 641 (1984)). The
district court found that Plaintiff failed to
satisfy the Odom/Ross test. According to
the district court, the undisputed facts indicated that Defendants’ conduct occurred
during the course of their employment and
within the scope of their authority, was not
undertaken with the requisite malice required under Michigan law, and was discretionary. (Dist. Ct. Op. at PageID
#1029–30.) Because Plaintiff failed to state
a claim against the United States under
Michigan law, the district court held that
the United States was ‘‘entitled to immunity under the FTCA.’’ (Id. at PageID
#1030.)
The FTCA does not bar Plaintiff from
maintaining his claims against Defendants
because the district court lacked subjectmatter jurisdiction over Plaintiff’s FTCA
claim. Plaintiff failed to satisfy the sixth
element of the Meyer test—he failed to
allege a claim ‘‘under circumstances where
the United States, if a private person,
would be liable to the claimant in accordance with the law of the place where the
act or omission occurred.’’ Meyer, 510 U.S.
at 477, 114 S.Ct. 996. Because Plaintiff
failed to state a FTCA claim, his claim did
not fall within the FTCA’s ‘‘jurisdictional
grant.’’ Id. And because the district court
lacked subject-matter jurisdiction over
Plaintiff’s FTCA claim, the district court’s
dismissal of his FTCA claim ‘‘does not
trigger the § 2676 judgment bar.’’ Himmelreich, 766 F.3d at 579.
[9] Few circuit courts of appeals have
addressed whether the FTCA’s judgment
bar applies when a district court dismisses
a plaintiff’s FTCA claims for lack of subject-matter jurisdiction. But the D.C. Circuit reached the same conclusion that this
Court reaches here—the FTCA’s judg-

12a
420

917 FEDERAL REPORTER, 3d SERIES

ment bar does not apply to dismissals for
lack of subject-matter jurisdiction. See
Atherton v. Jewell, 689 F. App’x 643, 644
(D.C. Cir. 2017) (holding that because the
district court ‘‘correctly determined that it
lacked subject-matter jurisdiction’’ under
the FTCA, the FTCA’s judgment bar ‘‘is
not a basis for the denial of appellant’s
motion to amend the complaint’’ to include
a Bivens claim) (citing Simmons v. Himmelreich, ––– U.S. ––––, 136 S.Ct. 1843,
1847–49, 195 L.Ed.2d 106 (2016)). The
Ninth Circuit reached a similar conclusion
in Pesnell v. Arsenault, 543 F.3d 1038 (9th
Cir. 2008), abrogated by Simmons v. Himmelreich, ––– U.S. ––––, 136 S.Ct. 1843,
195 L.Ed.2d 106 (2016), where it held that
the FTCA’s judgment bar did not preclude
a plaintiff from pursuing Bivens claims
after the district court dismissed his
FTCA claims for lack of subject-matter
jurisdiction. Arsenault, 543 F.3d at 1041.
However, the Ninth Circuit stated that the
plaintiff’s Bivens claims ‘‘are barred to the
extent that they rest upon the same misrepresentations alleged’’ in the FTCA action dismissed for lack of subject-matter
jurisdiction. Id. at 1042. This holding is
clearly wrong. If a federal court lacks subject-matter jurisdiction, it lacks the power
to hear a case. Ex parte McCardle, 74 U.S.
(7 Wall.) 506, 514, 19 L.Ed. 264 (1868).
Therefore, its dismissal for lack of subjectmatter jurisdiction does not have any preclusive effect. Himmelreich, 766 F.3d at
580.
[10] The government contends that the
district court denied Plaintiff’s FTCA
claim on the merits because it found that
Defendants failed to act with malice as
required to defeat qualified immunity under Michigan law. The Court rejects this
argument. The district court could not, as
a matter of law, decide the merits of Plaintiff’s FTCA claim—it lacked subject-matter jurisdiction over that claim. Himmelr-

eich, 766 F.3d at 580. It is true that the
district court analyzed Michigan law to
determine whether Plaintiff stated a
FTCA claim. But stating a claim under
state law is a jurisdictional prerequisite
without which the FTCA’s waiver of sovereign immunity does not apply. Meyer, 510
U.S. at 477, 114 S.Ct. 996. Therefore, the
district court’s conclusion that Plaintiff
failed to state a claim under Michigan law
was not a disposition on the merits. In fact,
it was the opposite—it precluded the district court from exercising subject-matter
jurisdiction over the FTCA claim and prevented the district court from reaching a
decision on the merits. Haywood v. Drown,
556 U.S. 729, 755, 129 S.Ct. 2108, 173
L.Ed.2d 920 (2009) (‘‘Subject-matter jurisdiction determines only whether a court
has the power to entertain a particular
claim—a condition precedent to reaching
the merits of a legal dispute.’’); Steel Co. v.
Citizens for a Better Env’t, 523 U.S. 83, 94,
118 S.Ct. 1003, 140 L.Ed.2d 210 (1998)
(‘‘Without jurisdiction the court cannot
proceed at all in any cause. Jurisdiction is
power to declare the law, and when it
ceases to exist, the only function remaining
to the court is that of announcing the fact
and dismissing the cause.’’ (quoting
McCardle, 74 U.S. (7 Wall.) at 514)).
The Supreme Court’s opinion in Simmons v. Himmelreich, ––– U.S. ––––, 136
S.Ct. 1843, 195 L.Ed.2d 106 (2016), does
not change the result. In Simmons, the
Supreme Court affirmed the Sixth Circuit’s ruling and held that the judgment
bar does not apply where an FTCA claim
was dismissed because it fell within an
enumerated ‘‘[e]xception.’’ Id. at 1845.
While Simmons was decided on narrower
grounds than Himmelreich, it does not
conflict with the unequivocal rule in this
Circuit that ‘‘[a] dismissal for lack of subject-matter jurisdiction does not trigger
the § 2676 judgment bar.’’ Himmelreich,
766 F.3d at 579.

13a
421

KING v. U.S.
Cite as 917 F.3d 409 (6th Cir. 2019)

Defendants argue that footnote 5 in
Simmons supports their position. This argument fails to persuade the Court. Footnote 5 explains that ‘‘the [FTCA’s] judgment bar provision functions in much the
same way’’ as the ‘‘common-law doctrine of
claim preclusion.’’ Simmons, 136 S.Ct. at
1850 (internal citations and quotations
omitted). It is well-established that ‘‘a dismissal for a lack of subject-matter jurisdiction carries no preclusive effect.’’ Himmelreich, 766 F.3d at 580 (citing Marrese
v. Am. Acad. of Orthopaedic Surgeons, 470
U.S. 373, 382, 105 S.Ct. 1327, 84 L.Ed.2d
274 (1985)). Thus, Defendants fail to appreciate that footnote 5 actually undermines their argument: because the district
court dismissed Plaintiff’s FTCA claim for
lack of subject-matter jurisdiction, its dismissal does not carry any preclusive effect.
See id. Therefore, under the logic of footnote 5, the FTCA judgment bar does not
prevent Plaintiff from pursuing his claims
against Defendants.
The cases that Defendants rely on are
inapposite. In Harris v. United States, 422
F.3d 322 (6th Cir. 2005), the district court
rejected the plaintiff’s FTCA claim on the
merits after a bench trial. Id. at 324. This
Court held that the FTCA’s judgment bar
precluded further adjudication of the plaintiff’s Bivens claims against the individual
defendants. Id. at 324–25. In Serra v. Pichardo, 786 F.2d 237 (6th Cir. 1986), the
district court granted judgment for the
plaintiff on the merits of his FTCA claim.
Id. at 237. This Court held that the decision on the merits prevented the plaintiff
from maintaining a Bivens action against
the individual defendants. Id. at 238. Defendants’ analogy to Harris and Serra
fails. Here, unlike in those cases, the district court did not reach the merits of the
FTCA claim.
2.

Conclusion

Because the district court dismissed
Plaintiff’s FTCA claim for lack of subject-

matter jurisdiction, the FTCA’s judgment
bar provision does not preclude Plaintiff
from pursuing his remaining claims
against Defendants.
B.

Qualified Immunity
Shield Defendants
1.

Does

Not

Standard of Review

[11–15] This Court ‘‘review[s] a grant
or denial of summary judgment de novo,
using the same Rule 56(c) standard as the
district court.’’ Williams v. Mehra, 186
F.3d 685, 689 (6th Cir. 1999) (en banc).
Summary judgment is appropriate when
‘‘the pleadings, depositions, answers to interrogatories, and admissions on file, together with the affidavits, if any, show that
there is no genuine issue as to any material fact and that the moving party is entitled to a judgment as a matter of law.’’
Fed. R. Civ. P. 56(c). In deciding a motion
for summary judgment, this Court views
the factual evidence and draws all reasonable inferences in favor of the non-moving
party. Nat’l Enters. v. Smith, 114 F.3d
561, 563 (6th Cir. 1997). In order to defeat
a motion for summary judgment, the nonmovant must show sufficient evidence to
create a genuine issue of material fact.
Klepper v. First Am. Bank, 916 F.2d 337,
341–42 (6th Cir. 1990) (citing Celotex Corp.
v. Catrett, 477 U.S. 317, 322, 106 S.Ct.
2548, 91 L.Ed.2d 265 (1986)). A mere scintilla of evidence is insufficient; ‘‘there must
be evidence on which the jury could reasonably find for the [non-movant].’’ Id.
(quoting Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 252, 106 S.Ct. 2505, 91
L.Ed.2d 202 (1986)). Entry of summary
judgment is appropriate ‘‘against a party
who fails to make a showing sufficient to
establish the existence of an element essential to that party’s case, and on which
that party will bear the burden of proof at

14a
422

917 FEDERAL REPORTER, 3d SERIES

trial.’’ Celotex, 477 U.S. at 322, 106 S.Ct.
2548.
2.

Analysis

[16, 17] Plaintiff argues that the district court erred when it granted summary
judgment for Defendants because the evidence leaves material facts in dispute as to
whether Defendants are entitled to qualified immunity. The doctrine of qualified
immunity shields government officials
‘‘from liability for civil damages if their
actions did not violate clearly established
statutory or constitutional rights of which
a reasonable person would have known.’’
Webb v. United States, 789 F.3d 647, 659
(6th Cir. 2015) (quoting Harlow v. Fitzgerald, 457 U.S. 800, 818, 102 S.Ct. 2727, 73
L.Ed.2d 396 (1982)). The qualified immunity analysis involves a two-step inquiry: (1)
whether, viewing the record in the light
most favorable to the plaintiff, a constitutional right has been violated; and (2)
whether the right at issue was ‘‘clearly
established’’ at the time the constitutional
violation occurred. Id.
The Court will first analyze qualified
immunity in the context of Plaintiff’s unreasonable search and seizure claims. The
Court will then turn to Plaintiff’s excessive
force claims. As explained below, the district court erred by finding that qualified
immunity shielded Defendants in regard to
both sets of claims.
a.

Unreasonable Search
and Seizure Claims

[18–20] The Fourth Amendment provides that ‘‘[t]he right of the people to be
secure in their persons, houses, papers,
and effects, against unreasonable searches
and seizures, shall not be violated[.]’’ U.S.
Const. amend. IV. ‘‘A warrantless search
or seizure is ‘per se unreasonable under
the Fourth Amendment—subject only to a
few specifically established and well-delin-

eated exceptions.’ ’’ United States v.
Roark, 36 F.3d 14, 17 (6th Cir. 1994) (quoting Katz v. United States, 389 U.S. 347,
357, 88 S.Ct. 507, 19 L.Ed.2d 576 (1967)).
The Supreme Court has identified three
types of reasonable, and thus permissible,
warrantless encounters between the police
and citizens: (1) consensual encounters,
which may be initiated by a police officer
based on a mere hunch or without any
articulable reason whatsoever; (2) investigative stops (or Terry stops), which are
temporary, involuntary detentions that
must be predicated upon ‘‘reasonable suspicion;’’ and (3) arrests, which must be
based upon ‘‘probable cause.’’ United
States v. Pearce, 531 F.3d 374, 380 (6th
Cir. 2008) (citing United States v. Alston,
375 F.3d 408, 411 (6th Cir. 2004)). Under
this framework, an individual is free ‘‘to
ignore the police and go about [his or her]
business,’’ Illinois v. Wardlow, 528 U.S.
119, 125, 120 S.Ct. 673, 145 L.Ed.2d 570
(2000), unless a police officer has at least
reasonable suspicion that the individual
has committed, or is about to commit, a
crime. See Family Serv. Ass’n ex rel. Coil
v. Wells Twp., 783 F.3d 600, 604 (6th Cir.
2015).
In this case, Plaintiff argues that Defendants acted unreasonably when they (1)
performed an investigative stop, (2) performed a protective search, and (3)
stopped Plaintiff’s attempt to run away.
The Court analyzes each argument in turn.
i.

Reasonableness of the
Investigative Stop

[21–23] As a threshold matter, Defendants could have arrested Plaintiff without
running afoul of the Fourth Amendment if
they had reasonably mistaken Plaintiff for
Davison. ‘‘Arrest warrants in the hands of
a police officer, unless facially invalid, are
presumed valid.’’ Fettes v. Hendershot, 375
F. App’x 528, 532 (6th Cir. 2010). ‘‘[P]olice

15a

KING v. U.S.
Cite as 917 F.3d 409 (6th Cir. 2019)

and correction employees may rely on facially valid arrest warrants even in the
face of vehement claims of innocence by
reason of mistaken identity or otherwise.’’
Masters v. Crouch, 872 F.2d 1248, 1253
(6th Cir. 1989) (citing Baker v. McCollan,
443 U.S. 137, 145, 99 S.Ct. 2689, 61
L.Ed.2d 433 (1979)). ‘‘[W]hen the police
have probable cause to arrest one party,
and when they reasonably mistake a second party for the first party, then the
arrest of the second party is a valid arrest.’’ Hill v. California, 401 U.S. 797, 802,
91 S.Ct. 1106, 28 L.Ed.2d 484 (1971) (internal citations and quotation marks omitted);
see also Fettes, 375 F. App’x at 532; Ingram v. City of Columbus, 185 F.3d 579,
595 (6th Cir. 1999).
[24–26] But Defendants do not argue
that they reasonably mistook Plaintiff for
Davison. Instead, they argue that they
reasonably suspected that Plaintiff might
be Davison, thereby justifying an investigative stop.2 ‘‘[I]f police have a reasonable
suspicion, grounded in specific and articulable facts, that a person they encounter
was involved in or is wanted in connection
with a completed felony, then a Terry stop
may be made to investigate that suspicion.’’ United States v. Hensley, 469 U.S.
221, 229, 105 S.Ct. 675, 83 L.Ed.2d 604
(1985). Reasonable suspicion is:
more than a mere hunch, but is satisfied
by a likelihood of criminal activity less
than probable cause, and falls considerably short of satisfying a preponderance
of the evidence standard. If an officer
possesses a particularized and objective
basis for suspecting the particular person TTT based on specific and articulable
facts, he may conduct a Terry stop.
2.

The parties dispute whether the encounter
between Plaintiff and Defendants began as an
investigative Terry stop or instead as a consensual encounter, but this dispute is ultimately inconsequential because, as explained

423

Dorsey v. Barber, 517 F.3d 389, 395 (6th
Cir. 2008) (quoting United States v. Arvizu, 534 U.S. 266, 273, 122 S.Ct. 744, 151
L.Ed.2d 740 (2002)) (citations and internal
quotation marks omitted).
[27] Defendants assert that they had
reasonable suspicion to believe that Plaintiff was Davison. However, the undisputed
facts do not show that the officers’ suspicion was reasonable under the totality of
the circumstances. The foundation of Defendants’ suspicion was a physical description of Davison, which described him as a
26-year old white male with a height between 5’109 and 6’39, short dark hair, glasses, and a thin build. But given the broad
swath of the population that matches this
physical description and the requirement
that reasonable suspicion be based on a
‘‘particularized and objective basis for suspecting [a] particular person,’’ Dorsey, 517
F.3d at 395 (emphasis added), this physical
description of Davison alone would not
have given Defendants a reasonable suspicion that anyone, let alone Plaintiff, was
Davison.
Building on their physical description of
Davison, the officers had information about
one of Davison’s habits. Defendants knew
that ‘‘[a]lmost every day between 2:00 pm
and 4:00 pm, he bought a soft drink from
the Shell gas station at the intersection of
Leonard Street and Alpine Avenue.’’ (Def.
Br. 3–4.) This information arguably could
have provided Defendants with a reasonable basis to detain and request identification from any individual who matched Davison’s physical description and bought a
soft drink consistent with Davison’s habit.
See Family Serv. Ass’n, 783 F.3d at 604
(explaining that officers may request ideninfra, there is a genuine dispute of material
fact as to whether the officers had reasonable
suspicion, even by the point that the encounter escalated to what was alleged to constitute
a Terry stop.

16a
424

917 FEDERAL REPORTER, 3d SERIES

tification if relevant to purpose of Terry
stop); United States v. Orsolini, 300 F.3d
724, 730 (6th Cir. 2002) (‘‘[A]n investigative
detention must be temporary and last no
longer than is necessary to effectuate the
purpose of the stop.’’ (quoting Florida v.
Royer, 460 U.S. 491, 500, 103 S.Ct. 1319,
75 L.Ed.2d 229 (1983))). But that is not
what happened. Defendants cite no evidence to show that Plaintiff bought a soft
drink or even entered the relevant gas
station, which was located at the intersection of Leonard and Alpine Streets. Rather, Defendants say that they merely found
Plaintiff ‘‘near the intersection of Leonard
and Alpine’’ at 2:30 p.m. while Plaintiff was
‘‘walking down Leonard Street.’’ (Def. Br.

at 4.) In fact, Plaintiff was several blocks
away from the relevant intersection. Thus,
Defendants could not have mistaken Plaintiff for Davison based, in part, on Davison’s habit. Although Defendants found
Plaintiff in the general neighborhood
where they thought Davison might be
found, Defendants also do not cite any
cases suggesting that officers may detain
everyone in an entire neighborhood who
matches the vague physical description of
a criminal suspect. Fourth Amendment
case law has clearly established the contrary. See Dorsey, 517 F.3d at 395.

The first of these photographs depicts the
silhouette of a man playing an electric
guitar. The man is wearing sunglasses, his
head is tilted downward, and there is insufficient light to discern identifying characteristics. This photograph adds nothing
to the physical description of Davison and

therefore did not provide additional support for the Terry stop.

Further building on their description of
Davison, the officers had two photographs:

The second photograph—a 2007 driver’s
license photo—depicts Davison’s face
clearly. Obviously, Plaintiff, whose photograph appears below, is not a match to the
driver’s license photo:

17a

KING v. U.S.
Cite as 917 F.3d 409 (6th Cir. 2019)

Defendants admit that they ‘‘did not know
how Mr. Davison looked in 2014,’’ (R. 74-1
at PageID #610), but they suspected that
he ‘‘look[ed] more like the [silhouette] photo’’ than the driver’s license photo. (R. 73
at PageID #428). Defendants’ theory
seems to be that they could have detained
anybody who remotely resembled Davison’s old driver’s license photograph, given
that Davison could have changed his appearance in the intervening seven years.
But whether Plaintiff resembles the photograph is a question of fact. See Ingram,
185 F.3d at 596 (‘‘[A] genuine issue of fact
existed as to whether the officers’ mistake
in identifying [the plaintiff] as [a particular
fugitive] was a reasonable one.’’); Thomas
v. Noder-Love, 621 F. App’x 825, 830 (6th
Cir. 2015) (‘‘[D]eciding whether the man in
the Footage Photo and the man in the
Booking Photo looked similar in appearance TTT raises issues of fact that are only
3.

Plaintiff also argues that Defendants’ suspicion, if any, should have been dispelled when
Plaintiff stated that his name was ‘‘James’’
because the suspect’s name was not James.
But if Defendants reasonably suspected that
Plaintiff matched the photo of Davison, Defendants were not required to believe Plain-

425

properly resolvable at trial.’’). A jury could
reasonably conclude that Plaintiff bears no
resemblance whatsoever to Davison’s driver’s license photograph, in which case the
photograph could not have supported reasonable suspicion for a Terry stop.
Finally, Defendants assert that their
reasonable suspicion was cemented when
Plaintiff ‘‘declined to supply has last name
and denied possessing any identification.’’
(Def. Br. 21.) But there is no evidence in
the record to show that Defendants asked
Plaintiff for his last name, so he could not
have ‘‘declined’’ to provide it.3 Moreover, it
would not have been suspicious, as a matter of law, for Plaintiff to refuse to cooperate with Defendants’ investigation. Family
Serv. Ass’n, 783 F.3d at 604 (‘‘Refusing to
answer an officer’s questions during an
officer’s attempt to conduct a consensual
encounter does not create reasonable suspicion for a Terry stop.’’). Thus, unless
tiff’s assertions that his name was James. See
Masters, 872 F.2d at 1253. As further explained in this opinion, Plaintiff’s response to
being asked for his name was largely inconsequential—unless, of course, his answer had
been ‘‘Aaron.’’

18a
426

917 FEDERAL REPORTER, 3d SERIES

Defendants already had reasonable suspicion that Plaintiff was Davison when they
approached him, Plaintiff’s simple refusal
to cooperate was not suspicious and could
not provide grounds for a Terry stop. See
id.
Thus, under the totality of the circumstances, the following factors supported
Defendants’ suspicion that Plaintiff was
Davison: Plaintiff matched a rather incomplete physical description of Davison that
did not include any defining characteristics; Defendants saw Plaintiff walking during the afternoon in a neighborhood near
where Davison was known to buy soft
drinks in the afternoon, but Plaintiff had
not purchased a soft drink; and Defendants may have reasonably suspected that
Plaintiff resembled a seven-year-old driver’s license photograph of Davison—or a
photograph that did not show Davison’s
face. The first two factors together could
not have provided a ‘‘particularized and
objective basis for suspecting [a] particular
person,’’ because they could describe any
number of people in the neighborhood
where Plaintiff was walking. See Dorsey,
517 F.3d at 395. Thus, under clearly established law, Defendants needed more; they
needed to find someone who resembled the
photographs of Davison. Because there is a
genuine dispute about whether a reasonable officer could conclude that Plaintiff
resembled the photographs, the district
court erred in granting Defendants’ motion
for summary judgment on the basis of
qualified immunity.
[28–31] In granting Defendants qualified immunity, the district court correctly
explained that ‘‘ ‘certainty’ is not ‘the
touchstone of reasonableness under the
Fourth Amendment’ ’’ (R. 91 at PageID
#1016 (quoting Hill, 401 U.S. at 803–04,
91 S.Ct. 1106)) and that ‘‘the reasonableness inquiry includes some ‘latitude for
honest mistakes’ TTT in the difficult task

of finding and arresting fugitives.’’ (Id.
(quoting Maryland v. Garrison, 480 U.S.
79, 87, 107 S.Ct. 1013, 94 L.Ed.2d 72
(1987))). Indeed, ‘‘the ultimate touchstone
of the Fourth Amendment is ‘reasonableness.’ ’’ Brigham City, Utah v. Stuart, 547
U.S. 398, 403, 126 S.Ct. 1943, 164 L.Ed.2d
650 (2006). But this standard does not
become more forgiving as the quality of
evidence (or of police work) decreases.
Rather, as the description of a suspect
becomes less reliable—due to the passage
of time or otherwise—an officer’s reliance
on that description becomes objectively
less reasonable and less likely to support a
warrantless detention, arrest, or search.
When officers mistake a person for a
criminal suspect, the officers’ ‘‘subjective
good-faith belief’’ is irrelevant; the mistake
must be ‘‘understandable’’ and based on
‘‘sufficient probability.’’ Hill, 401 U.S. at
804, 91 S.Ct. 1106; see Illinois v. Gates,
462 U.S. 213, 232, 103 S.Ct. 2317, 76
L.Ed.2d 527 (1983) (explaining that the
Fourth Amendment inquiry requires ‘‘the
assessment of probabilities in particular
factual contexts’’).
In support of the district court’s logic,
Defendants explain that their mistake was
reasonable because ‘‘[d]espite their best
efforts, the officers ‘did not know how TTT
Davison looked in 2014’ because they could
not find a recent image of his face.’’ (Def.
Br. 23.) But Defendants’ logic is faulty; the
old age of a suspect’s photograph cannot
increase its reliability or, in turn, the
chances of finding a match. The less an
officer knows about a suspect’s appearance, the less reasonable it is for the officer to suspect that any particular person
matches that appearance. See Dorsey, 517
F.3d at 395. The greater difficulty in accurately identifying anyone as Davison decreases, not increases, the reasonableness
of any particular suspicion. Under the totality of the circumstances, the only way

19a

KING v. U.S.
Cite as 917 F.3d 409 (6th Cir. 2019)

for Defendants to have had reasonable
suspicion that Plaintiff was Davison was if
Defendants’ belief that Plaintiff resembled
Davison’s old driver’s license photograph
was ‘‘understandable’’ in light of the other
identifying information available to Defendants at the time. See Hill, 401 U.S. at
804, 91 S.Ct. 1106. This is a question for
the jury.
ii.

Reasonableness of the
Protective Search

[32] Plaintiff also argues that Detective Allen violated his Fourth Amendment
right to be free from unreasonable
searches when he frisked Plaintiff for
weapons and removed Plaintiff’s wallet
from his pocket.4

427

S.Ct. 338, 62 L.Ed.2d 238 (1980)). ‘‘If the
protective search goes beyond what is necessary to determine if the suspect is
armed, it is no longer valid under Terry.’’
Minnesota v. Dickerson, 508 U.S. 366, 373,
113 S.Ct. 2130, 124 L.Ed.2d 334 (1993).
Plaintiff does not dispute that Defendants could have reasonably believed he
was armed and dangerous, assuming of
course that Defendants reasonably believed that he was Aaron Davison.5 Rather,
Plaintiff argues that Detective Allen exceeded the scope of a lawful protective
search when he removed Plaintiff’s wallet
from the back pocket of Plaintiff’s pants.

[33–36] For a protective search conducted during a Terry stop to be reasonable, ‘‘the police officer must reasonably
suspect that the person stopped is armed
and dangerous.’’ Arizona v. Johnson, 555
U.S. 323, 326–27, 129 S.Ct. 781, 172
L.Ed.2d 694 (2009). The officer ‘‘must be
able to point to particular facts from which
he reasonably inferred that the individual
was armed and dangerous.’’ Sibron v. New
York, 392 U.S. 40, 64, 88 S.Ct. 1889, 20
L.Ed.2d 917 (1968). Based on such suspicion, ‘‘the officer may conduct a limited
search for concealed weapons.’’ United
States v. Strahan, 984 F.2d 155, 158 (6th
Cir. 1993). As applicable to this case, ‘‘Terry allows only an examination for concealed objects and forbids searching for
anything other than weapons.’’ Id. (citing
Ybarra v. Illinois, 444 U.S. 85, 92–94, 100

[37, 38] The Supreme Court has recognized that officers’ training enables them
to identify objects with particularity during protective frisks. In Dickerson, for instance, the Supreme Court articulated the
so-called ‘‘plain touch’’ doctrine: ‘‘[i]f a police officer lawfully pats down a suspect’s
outer clothing and feels an object whose
contour or mass makes its identity immediately apparent, there has been no invasion of the suspect’s privacy beyond that
already authorized by the officer’s search
for weapons; if the object is contraband, its
warrantless seizure would be justified by
the same practical considerations that inhere in the plain-view context.’’ Id. at 375–
76, 113 S.Ct. 2130. This Court has elaborated on the plain touch doctrine and the
relevance of an officer’s training to investigatory decisions made during a frisk:
In assessing whether an object’s incriminatory nature is immediately apparent,

4.

5.

If Defendants lacked reasonable suspicion
to conduct a Terry stop, clearly established
law provides that this frisk was unreasonable
in its entirety. Sibron v. New York, 392 U.S.
40, 64, 88 S.Ct. 1889, 20 L.Ed.2d 917 (1968)
(‘‘The police officer is not entitled to seize and
search every person whom he sees on the
street or of whom he makes inquiries.’’).

Before the frisk, Plaintiff told Defendants
that he was armed with a pocket knife. Because Plaintiff does not press the issue, the
Court does not analyze whether Plaintiff’s admission to possessing a pocket knife, combined with reasonable suspicion that Plaintiff
was Davison, would give rise to reasonable
suspicion that Plaintiff was armed and dangerous.

20a
428

917 FEDERAL REPORTER, 3d SERIES

the court must look to three factors,
none of which is necessary but each of
which is instructive. These factors are:
(1) a nexus between the seized object
and the [suspected criminal activity]; (2)
whether the intrinsic nature or appearance of the seized object gives probable
cause to believe that it is associated with
criminal activity; and (3) whether the
executing officers can at the time of
discovery of the object on the facts then
available to them determine probable
cause of the object’s incriminating nature.
United States v. Pacheco, 841 F.3d 384,
395 (6th Cir. 2016) (quoting United States
v. Garcia, 496 F.3d 495, 510 (6th Cir.
2007)) (citations and internal quotation
marks omitted).
Applying these principles, removing
Plaintiff’s wallet was not ‘‘necessary to determine if the suspect [was] armed’’ and
was therefore unreasonable based on
clearly established law. See Dickerson, 508
U.S. at 373, 113 S.Ct. 2130. Detective Allen
admits that the object in Plaintiff’s pocket
looked like a wallet, felt like a wallet, and
was located where one would expect to
find a wallet. And nothing related to the
circumstances of the investigative stop or
to the crime that Davison was suspected of
committing created a reasonable suspicion
that the wallet might be something other
than what it immediately appeared to be.
Detective Allen points to the existence of
razor blades and artfully concealed weapons—weapons ‘‘that are designed to look
like wallets but in fact are not’’—but he
does not suggest that there was reason to
believe that Plaintiff (or Davison) might
have been carrying a razor blade or an
artfully concealed weapon. (Def. Br. 27.) In
the context of reasonable suspicion, which
requires a ‘‘particularized and objective basis’’ for suspicion ‘‘based on specific and
articulable facts,’’ Dorsey, 517 F.3d at 395,
the fact that razor blades exist does not

give rise to a reasonable inference that
there is a razor blade in any particular
person’s wallet. The same analysis applies
to artfully concealed weapons. Indeed, if
an officer’s suspicion that a suspect is
armed and dangerous were sufficient to
also reasonably suspect that every object
in a suspect’s pocket either contains a
razor blade or is an artfully concealed
weapon, then there would be no practical
distinction between a protective search and
a search incident to arrest. Cf. United
States v. Robinson, 414 U.S. 218, 236, 94
S.Ct. 467, 38 L.Ed.2d 427 (1973) (‘‘Since it
is the fact of custodial arrest which gives
rise to the authority to search, it is of no
moment that [the officer] did not indicate
any subjective fear of the respondent or
that he did not himself suspect that respondent was armed.’’).
Defendants argue that removing Plaintiff’s wallet was reasonable and cite several
cases in support of their assertion, but
these cases are easily distinguishable. In
Strahan, 984 F.2d at 158, we concluded
that an officer was justified in reaching
into Strahan’s pockets when the officer
reasonably believed that Strahan was
armed because the officer: (1) was familiar
with Strahan; (2) had a reliable tip that
Strahan was armed; and (3) felt a bulge in
Strahan’s pocket during the frisk, which
could have been a weapon. In United
States v. Brown, 310 F. App’x 776, 781 (6th
Cir. 2009), we concluded that an officer did
not violate the Fourth Amendment by taking Brown’s wallet from his pocket when
the officer was alone, it was late at night,
and Brown was acting nervous and made a
furtive gesture towards his back pocket as
he tried to leave the scene. In United
States v. Muhammad, 604 F.3d 1022,
1026–27 (8th Cir. 2010), the Eighth Circuit
concluded that removing Muhammad’s
wallet was permissible when the officer
felt a four-inch by three-inch hard object

21a

KING v. U.S.
Cite as 917 F.3d 409 (6th Cir. 2019)

in Muhammad’s pocket, the officer could
not tell what the object was, and Muhammad had been detained for his suspected
participation in an armed robbery that had
taken place less two hours earlier. Here,
by contrast, Defendants were working together in broad daylight and did not suspect Plaintiff’s wallet was a weapon.
Accordingly, the district court erred
when it concluded that ‘‘[n]othing in Plaintiff’s allegations supports the proposition
that Allen’s ‘search’ was any broader than
necessary to ensure that Plaintiff did not
have access to a weapon.’’ (See R. 91 at
PageID #1018.) Detective Allen’s interest
in searching the contents of Plaintiff’s
pocket to avoid ‘‘unnecessary risks in the
performance of [his] duties’’ was minimal
given that Detective Allen could not have
reasonably suspected that the wallet was
anything other than a wallet. See Terry v.
Ohio, 392 U.S. 1, 23, 88 S.Ct. 1868, 20
L.Ed.2d 889 (1968). Under clearly established law, removing Plaintiff’s wallet during a protective search was unreasonable
even if the protective search was reasonable at its inception. See Dickerson, 508
U.S. at 373, 113 S.Ct. 2130.
iii.

Stopping Plaintiff’s Attempt to Flee

[39] Assuming that Defendants had
detained Plaintiff upon reasonable suspicion and that they had properly identified
themselves as police officers, it was not
unreasonable for Defendants to attempt to
stop Plaintiff’s flight. As the Supreme
Court has explained:
[U]nprovoked flight is simply not a mere
refusal to cooperate. Flight, by its very
nature, is not ‘‘going about one’s business’’; in fact, it is just the opposite.
Allowing officers confronted with such
flight to stop the fugitive and investigate
further is quite consistent with the
[Fourth Amendment].

429

Wardlow, 528 U.S. at 125, 120 S.Ct. 673.
Plaintiff is therefore incorrect to the extent that he suggests that the Fourth
Amendment compelled Defendants to permit him to flee from his detention, again,
assuming that the detention was lawful.
But if a jury determines that Plaintiff reasonably believed he was being mugged
rather than being detained by police officers, then extending the detention after
Plaintiff attempted to flee was just as unreasonable as detaining Plaintiff in the
first instance.
b.

Excessive Force Claim

[40, 41] Plaintiff next asserts that Defendants used excessive force in their attempt to prevent his flight. An excessive
force claim may be analyzed under the
Fourth, Eighth, or Fourteenth Amendment: ‘‘the applicable amendment depends
on the plaintiff’s status at the time of the
incident: a free citizen in the process of
being arrested or seized; a convicted prisoner; or someone in ‘gray area[s]’ around
the two.’’ Coley v. Lucas Cty., 799 F.3d
530, 537 (6th Cir. 2015) (quoting Burgess v.
Fischer, 735 F.3d 462, 472 (6th Cir. 2013)).
Where a free citizen claims that a government actor used excessive force during the
process of an arrest, seizure, or investigatory stop, the applicable analysis is governed by the Fourth Amendment. Id.
[42–48] ‘‘[T]he right to be free from
the excessive use of force is a clearly established Fourth Amendment right.’’
Champion v. Outlook Nashville, Inc., 380
F.3d 893, 902 (6th Cir. 2004) (quoting
Neague v. Cynkar, 258 F.3d 504, 507 (6th
Cir. 2001)). The Supreme Court has explained that ‘‘[n]ot every push or shove,
even if it may later seem unnecessary in
the peace of a judge’s chambers, violates
the Fourth Amendment.’’ Graham v. Connor, 490 U.S. 386, 396, 109 S.Ct. 1865, 104
L.Ed.2d 443 (1989). Rather, ‘‘the question

22a
430

917 FEDERAL REPORTER, 3d SERIES

is whether the officers’ actions [were] ‘objectively reasonable’ in light of the facts
and circumstances confronting them, without regard to their underlying intent or
motivation.’’ Id. at 397, 109 S.Ct. 1865.
‘‘The calculus of reasonableness must embody allowance for the fact that police
officers are often forced to make splitsecond judgments—in circumstances that
are tense, uncertain, and rapidly evolving—about the amount of force that is
necessary in a particular situation.’’ Id. at
396, 109 S.Ct. 1865. Therefore, to determine whether the use of force in a particular situation was reasonable, this Court
must look to the totality of the circumstances. See id.; Dickerson v. McClellan,
101 F.3d 1151, 1161 (6th Cir. 1996) (citing
Tennessee v. Garner, 471 U.S. 1, 8–9, 105
S.Ct. 1694, 85 L.Ed.2d 1 (1985)). In doing
so, the court must assume ‘‘the perspective
of a reasonable officer on the scene, rather
than with the 20/20 vision of hindsight.’’
Graham, 490 U.S. at 396, 109 S.Ct. 1865.
The analysis of whether an officer’s use of
force was reasonable is guided by the following three factors: (1) the severity of the
crime at issue; (2) whether the suspect
posed an immediate threat to the safety of
the officers or others; and (3) whether the
suspect was actively resisting arrest or
attempting to evade arrest by flight. Sigley v. City of Parma Heights, 437 F.3d
527, 534 (6th Cir. 2006).
[49] Excessive force cases typically require this Court to ‘‘analyze the events in
segments.’’ Phelps v. Coy, 286 F.3d 295,
301 (6th Cir. 2002) (citing Dickerson, 101
F.3d at 1161–62). In Phelps, for instance,
this Court analyzed three separate segments: first, the officer arrested Phelps
and placed him in handcuffs; second, the
officer took Phelps to the police station for
booking; and third, the officer tackled
Phelps to the ground, sat on top of him,
and beat him in response to a gesture by

Phelps that the officer claimed he perceived to be threatening. See id. at 301–02.
[50, 51] Plaintiff alleges that Defendants used excessive force in two distinct
segments of their encounter. First, Plaintiff alleges that Detective Allen used excessive force by continuing to beat Plaintiff
even after he was subdued. Any level of
violent force that an officer uses against a
subdued detainee is excessive as a matter
of clearly established law. See Champion,
380 F.3d at 902 (citing cases for the proposition that this Court has ‘‘consistently
held that various types of force applied
after the subduing of a suspect are unreasonable and a violation of a clearly established right’’); Adams v. Metiva, 31 F.3d
375, 386 (6th Cir. 1994) (holding and continuing to spray mace in the face of an
incapacitated arrestee, if proven, would be
unreasonable as a matter of law); Darnell
v. Caver, No. 97-5297, 1998 WL 416000, at
*3 (6th Cir. July 7, 1998) (unpublished)
(after suspect thrown to ground, unreasonable for officer to lift suspect’s head and
let it drop to pavement). But Plaintiff’s
allegation has no merit—there is no evidence to support it. Plaintiff suggests,
without support, that he was subdued the
moment that he released his bite. (See,
e.g., Pl. Br. 45 (‘‘[A] reasonable jury could
conclude that Allen beat [Plaintiff] after
[Plaintiff] released his bite.’’)) But Detective Allen testified during Plaintiff’s criminal trial that he ‘‘couldn’t gain control of
[Plaintiff]’’ and that he ‘‘felt like [he] was
losing the fight’’ until a nearby pedestrian
provided assistance. (R. 73 at PageID
#435.) Detective Allen stated that the incident ended only after the pedestrian ‘‘control[ed] [Plaintiff’s] legs, at [which] point
we were able to put the handcuffs on him.’’
(Id.) The pedestrian also testified that Defendants needed his assistance to subdue
Plaintiff. (Id. at PageID #448.) Plaintiff
presents no evidence to show that he

23a

KING v. U.S.
Cite as 917 F.3d 409 (6th Cir. 2019)

stopped resisting when he stopped biting,
and he fails to refute extensive testimony
indicating that three people were struggling to subdue him even after he released
his bite.6 Accordingly, Plaintiff has failed
to show that Detective Allen used excessive force after Plaintiff was subdued.
[52, 53] Second, Plaintiff alleges that
Defendants used excessive force in subduing him. This Court agrees, especially because a jury could find that Defendants
failed to identify themselves as police officers.7 It is impossible to resist an arrest
(or detention) without knowing that an arrest (or detention) is being attempted. Metiva, 31 F.3d at 385 (‘‘[W]hether plaintiff
was actively resisting arrest or attempting
to evade arrest is contested as plaintiff
alleges he was never told he was under
arrest or why he was being further detained after submitting to two pat-down
searches.’’). If a jury were to find that
Defendants failed to properly identify
themselves, then Plaintiff’s flight did not
constitute ‘‘actively resisting arrest or attempting to evade arrest by flight’’ as a
matter of law. Id. Indeed, Plaintiff says
that he ran away only after asking whether Defendants were mugging him. If a jury
6.

Plaintiff states in his reply brief that he
disputes whether the pedestrian helped Defendants subdue him. However, Plaintiff does
not explain his dispute, nor does he cite any
evidence that tends to show that Defendants
continued to use force after Plaintiff was subdued.

7.

Detective Allen was primarily responsible
for the use of force, but Officer Brownback
participated in the Terry stop, was present
throughout the encounter, did not intervene
once the encounter became violent, and at
some point joined Detective Allen in subduing
Plaintiff. Without resolving the parties’ factual
disputes, the Court cannot conclude that Officer Brownback is entitled to qualified immunity for any portion of the encounter.

8.

Even if Defendants reasonably suspected
that Plaintiff was Davison, Davison’s suspected crime was not one for which it might have

431

were to credit Plaintiff’s testimony, then
neither Defendant is entitled to qualified
immunity because any reasonable officer
would have known, based on clearly established law, that applying force—tackling
Plaintiff to the ground, holding him down,
choking him, and beating him into submission—was unreasonable under the circumstances.8 See id.; Atkins v. Twp. of Flint,
94 F. App’x 342, 349 (6th Cir. 2004) (concluding that ‘‘a reasonable officer would
ordinarily inform a suspect TTT that he
was being arrested’’ for a low-level crime,
especially when ‘‘there was no reason not
to tell him he was under arrest’’); Griffith
v. Coburn, 473 F.3d 650, 657 (6th Cir.
2007).
[54–56] But regardless of whether the
force was justified at its inception, Detective Allen’s use of a chokehold, if proven,
would be excessive under clearly established law. The use of a chokehold constitutes deadly force. See Coley, 799 F.3d at
540. When a suspect resists arrest by
‘‘wrestling [himself] free from officers and
running away,’’ officers may reasonably
use force, but such conduct ‘‘does not justify deadly force, especially when the strugbeen reasonable for Detective Allen to tackle
Plaintiff to the ground without explanation.
Davison’s suspected crime was home invasion, which the evidence indicates was a nonviolent crime, if moderately severe. The degree of home invasion Davison allegedly committed is unclear. The lowest level of home
invasion is a felony punishable by imprisonment for up to five years, a fine of up to
$ 2,000, or both. MCL § 750.110a(7). This
degree of home invasion does not necessarily
require a perpetrator to commit an act of
violence or to interact with others. Id. at
§ 750.110a(3). Thus, viewing the evidence in
the light most favorable to Plaintiff, Defendants had no reason to think that Plaintiff was
a particularly dangerous criminal and no reason to tackle him to the ground without announcing themselves.

24a
432

917 FEDERAL REPORTER, 3d SERIES

gle has concluded and the suspect is in
flight.’’ Bouggess v. Mattingly, 482 F.3d
886, 891 (6th Cir. 2007). Thus, ‘‘[t]he use of
a chokehold on an unresisting—and even
an initially resistant—detainee’’ constitutes
excessive force. Coley, 799 F.3d at 540.9
Therefore, any officer should have known
based on clearly established law that using
a chokehold when Plaintiff was attempting
to run away was objectively unreasonable.
Detective Allen argues that ‘‘the Constitution does not prohibit officers from using
this technique [a chokehold] to restrain a
suspect just seconds after the suspect attempts to punch an officer and to flee.’’
(Def. Br. 32.) Although Bouggess addressed an officer’s use of his firearm,
rather than a chokehold, the principle from
Bouggess applies to the instant case. Bouggess clearly established that using deadly
force, when the struggle has concluded and
a suspect is fleeing, is excessive and unconstitutional. See Bouggess, 482 F.3d at 891.
The district court therefore erred by
granting Detective Allen qualified immunity as to his use of force.
Therefore, neither Defendant is entitled
to qualified immunity on Plaintiff’s excessive force claims.
C.

The District Court Correctly Held
that Plaintiff’s Claims Against
Detective Allen are Bivens Claims
Rather than § 1983 Claims
1.

Standard of Review

[57] This Court reviews de novo the
purely legal question of whether a cause of
action arises under § 1983 or instead under the implied right of action recognized
in Bivens, 403 U.S. 388, 91 S.Ct. 1999. See
United States v. Graham, 484 F.3d 413,
416 (6th Cir. 2007); Rodgers v. Banks, 344
F.3d 587, 593 (6th Cir. 2003).
9.

Although Coley was published after the
events giving rise to this case, this Court
recognized in Coley that prior cases made it

2.

Analysis

As explained below, the Court concludes
that the district court correctly held that
Plaintiff’s claims against Detective Allen
are Bivens claims rather than § 1983
claims.
a.

Relevant Legal Principles

[58–60] To bring a claim under § 1983,
the plaintiff must allege: ‘‘1) the defendant
acted under color of state law; and 2) the
defendant’s conduct deprived the plaintiff
of rights secured under federal law.’’ Fritz
v. Charter Twp. of Comstock, 592 F.3d 718,
722 (6th Cir. 2010) (citing Bloch v. Ribar,
156 F.3d 673, 677 (6th Cir. 1998)). ‘‘The
ultimate issue in determining whether a
party is subject to liability under 42 U.S.C.
§ 1983 is whether the alleged infringement
of federal rights is ‘fairly attributable to
the state.’ ’’ Crowder v. Conlan, 740 F.2d
447, 449 (6th Cir. 1984) (quoting Lugar v.
Edmondson Oil Co., 457 U.S. 922, 937, 102
S.Ct. 2744, 73 L.Ed.2d 482 (1982)). The
question of fair attribution involves a twostep inquiry: ‘‘[f]irst, the deprivation must
be caused by the exercise of some right or
privilege created by the State or by a rule
of conduct imposed by the [S]tate or by a
person for whom the State is responsible.’’
Lugar, 457 U.S. at 937, 102 S.Ct. 2744. In
addition, ‘‘the party charged with the deprivation must be a person who may fairly
be said to be a state actor. This may be
because he is a state official, because he
has acted together with or has obtained
significant aid from state officials, or because his conduct is otherwise chargeable
to the State.’’ Id.
[61, 62] A defendant’s actions performed pursuant to a ‘‘ ‘mixed’ federal and
‘‘abundantly clear’’ that ‘‘[c]hokeholds are objectively unreasonable where TTT there is no
danger to others.’’ Coley, 799 F.3d at 541.

25a

KING v. U.S.
Cite as 917 F.3d 409 (6th Cir. 2019)

state program may TTT be actions ‘under
color of state law.’ ’’ Rowe v. Tennessee,
609 F.2d 259, 266 (6th Cir. 1979). The
‘‘evaluation of whether particular conduct
constitutes action taken under the color of
state [or instead federal] law, must focus
on the actual nature and character of that
action.’’ Schultz v. Wellman, 717 F.2d 301,
304 (6th Cir. 1983). In Schultz, for instance, this Court explained that the decision by a defendant officer in the Kentucky Air National Guard to terminate a
lower-level officer was made under color of
state law, not federal law, because ‘‘[o]fficers in the National Guard TTT are officers
of the state militia until called into active
federal duty,’’ and because terminations
from the National Guard ‘‘are ordered by
the state Adjutant General, a state officer,
and must be approved by the Governor of
the state.’’ Id. at 305.

433

federal agent, Detective Allen carried federal authority and acted under color of
that authority rather than under any state
authority he may have had as a Grand
Rapids Police detective. See Guerrero v.
Scarazzini, 274 F. App’x 11, 12 n.1 (2d
Cir. 2008) (‘‘[B]ecause Scarazzini and
McAllister were federally deputized for
their Task Force work, this claim was
properly brought TTT as a Bivens action.’’); Majors v. City of Clarksville, 113
F. App’x 659, 659–60 (6th Cir. 2004) (explaining that a § 1983 claim brought
against police officers serving with a DEA
task force was ‘‘in reality a Bivens claim
under the Fourteenth Amendment’’).

[63] Plaintiff’s claims against Detective
Allen may not be brought under § 1983
because Detective Allen’s conduct is fairly
attributable only to the United States and
not to the State of Michigan.10 Although
Detective Allen was a detective with the
Grand Rapids Police and was therefore
employed by the state, Detective Allen
was working full time with an FBI task
force at the time of the incident at issue.
Plaintiff has not alleged or demonstrated
that the state was involved in authorizing
or administering the task force; instead, it
appears that the FBI managed the operation with the benefit of state resources.
Detective Allen’s ‘‘official character’’ at the
time of the incident was therefore ‘‘such
as to lend the weight of the [United
States] to his decisions.’’ See Lugar, 457
U.S. at 937, 102 S.Ct. 2744. As a deputized

Plaintiff argues that Detective Allen acted under color of state law because the
task force was enforcing a state warrant
for Davison’s arrest at the time the events
giving rise to this case took place. But
Plaintiff fails to explain why the ‘‘nature
and character’’ of a task force should
change based on whether the task force
chooses to pursue a state fugitive or a
federal fugitive. Schultz, 717 F.2d at 304.
Plaintiff points out that ‘‘Davison had committed no federal crime’’ and therefore
‘‘the officers had no authority independent
of Michigan state law to arrest Davison.’’
(Pl. Br. 61.) However, the nature and character of a cooperative federal-state program is determined by the source and
implementation of authority for the program, not for the particular work that the
agency chooses, in the exercise of its authority, to perform on a given day. Cf. id.
at 305 (‘‘That an agency of the state chooses to utilize federal substantive and procedural rules in the exercise of its state law
authority does not transform the state law
character of its actions.’’). Thus, as long as

10. Detective Allen’s potential liability is unchanged by whether Plaintiff’s claims properly arise under Bivens or § 1983. See Butz v.
Economou, 438 U.S. 478, 500–04, 98 S.Ct.

2894, 57 L.Ed.2d 895 (1978) (explaining that
liability for an actionable claim under Bivens
is indistinguishable from an analogous claim
under § 1983).

b.

Application to the Matter at Hand

26a
434

917 FEDERAL REPORTER, 3d SERIES

the task force’s decision to apprehend Davison was made by virtue of an exercise of
federal authority, which Plaintiff does not
contest, Detective Allen remained a federal
agent in the pursuit of a state fugitive.
Therefore, the district court correctly concluded that Plaintiff’s claims against Detective Allen are Bivens claims and not
§ 1983 claims.
CONCLUSION
For the reasons explained above, the
Court REVERSES the district court’s
findings that (1) the FTCA judgment bar
precludes Plaintiff’s remaining claims and
that (2) Defendants are entitled to qualified immunity, VACATES the district
court’s judgment in favor of Defendants,
and REMANDS for proceedings consistent with this opinion.
DISSENT
ROGERS, Circuit Judge, dissenting.
The district court’s dismissal of King’s
FTCA claims against the United States
based on the presence of state-law governmental immunity constitutes a ‘‘judgment’’
under 28 U.S.C. § 2676, such that the
FTCA’s judgment bar precludes King’s
claims against Allen and Brownback.
The FTCA’s judgment bar provides:
The judgment in an action under section
1346(b) of this title shall constitute a
complete bar to any action by the claimant, by reason of the same subject matter, against the employee of the government whose act or omission gave rise to
the claim.
28 U.S.C. § 2676. King had sued the United States under 28 U.S.C. § 1346(b) based
on the allegedly tortious acts of Todd Allen
and Douglas Brownback. The district court
dismissed King’s FTCA claims on statelaw grounds. King did not challenge the
dismissal of his FTCA claims on appeal, so

the decision was final for the purposes of
the FTCA’s judgment bar. See Serra v.
Pichardo, 786 F.2d 237, 239, 242 (6th Cir.
1986). Moreover, King does not dispute
that the additional claims against Allen
and Brownback arise from the same ‘‘subject matter’’ as his FTCA claims. A judgment for or against the United States on
an FTCA claim bars claims based on the
same subject matter, ‘‘even when ‘the
claims [a]re tried together in the same suit
and [ ] the judgments [ ] entered simultaneously.’ ’’ Harris v. United States, 422
F.3d 322, 334 (6th Cir. 2005) (quoting Serra, 786 F.2d at 241). The district court’s
order in favor of the United States on
King’s FTCA claims accordingly triggers
the judgment bar and requires the dismissal of King’s additional claims against
Allen and Brownback.
Although the district court’s order established that the district court lacked subject matter jurisdiction over the FTCA
claims, this is because merits determinations under the FTCA are jurisdictional in
that they implicate the sovereign immunity
of the United States. The dismissal still
amounted to a ‘‘judgment’’ under 28 U.S.C.
§ 2676. Indeed, the district court dismissed King’s FTCA claims against the
United States based on determinations
that are legally indistinguishable from determinations that the Supreme Court has
identified, albeit in dictum, as triggering
the judgment bar. In Simmons v. Himmelreich, ––– U.S. ––––, 136 S.Ct. 1843,
1849, 195 L.Ed.2d 106 (2016), the Court
explained that the judgment bar applies
when FTCA claims are dismissed ‘‘because
the [defendants] were not negligent, because [the plaintiff] was not harmed, or
because [the plaintiff] simply failed to
prove his claim.’’ Such dismissals are under § 1346(b), which lifts the sovereign
immunity of the United States by granting
jurisdiction over a cause of action for mon-

27a

KING v. U.S.
Cite as 917 F.3d 409 (6th Cir. 2019)

ey damages against the government in certain limited circumstances.1 According to
the Court, ‘‘it would make little sense to
give [the plaintiff] a second bite at the
money-damages apple by allowing suit
against the employees’’ to proceed in such
a case. Id. The hypothetical dismissals
‘‘would have given [the plaintiff] a fair
chance to recover damages’’ for the alleged
constitutional violations, such that applying
the judgment bar to preclude litigation
over claims arising from the same subject
matter would be appropriate. Id.
This is precisely what happened in
King’s lawsuit. The district court dismissed
King’s FTCA claims against the United
States because it determined that Michigan governmental immunity protected Allen and Brownback from liability for their
alleged torts. According to the court, ‘‘the
parties’ undisputed facts support the finding that [Allen and Brownback’s] actions
were not undertaken with the malice required under Michigan law.’’ The district
court’s dismissal of King’s FTCA claims
was based on an assessment of their merits under Michigan law. Such a dismissal is
warranted by the limits set out in
§ 1346(b), like those in the Simmons dictum. Under § 1346(b), the FTCA creates a
cause of action against the United States
‘‘for injury or loss of property, or personal
injury or death,’’ only where ‘‘the United
States, if a private person, would be liable
to the claimant in accordance with the law
1.

of the place where the act or omission
occurred.’’
It is true that a merits-based dismissal
under the limits of § 1346(b) is jurisdictional; the terms of § 1346(b) explicitly
grant jurisdiction to the district courts for
such claims against the government. But
that cannot be sufficient to preclude application of the FTCA judgment bar because
that would effectively nullify the judgment
bar with respect to cases where the FTCA
judgment was in favor of the government.
Every case that determines that the elements of the cause of action are not met is
at the same time a determination that the
government’s immunity is not waived and
that there is accordingly no jurisdiction.
This is true even of a judgment entered
after trial. See, e.g., Harris, 422 F.3d at
324–25; Serra, 786 F.2d at 241–42. But as
the Supreme Court reasoned in Simmons,
such cases are subject to the FTCA judgment bar. See Simmons, 136 S.Ct. at 1849.
The actual holding in Simmons was that
the FTCA’s judgment bar does not apply
when a judgment is rendered for or
against the United States based on one of
the FTCA’s ‘‘Exceptions’’ set out in 28
U.S.C. § 2680, such as the discretionary
function exception. Id. at 1847–48. The
Court relied upon the ‘‘plain text’’ of the
FTCA for that conclusion. Id. The plain
text provision dictates that the judgment
bar does not apply to cases excepted under
28 U.S.C. § 2680.2 But the plain text ap-

28 U.S.C. § 1346(b) provides:
Subject to the provisions of chapter 171 of
this title, the district courts TTT shall have
exclusive jurisdiction of civil actions on
claims against the United States, for money
damages, accruing on and after January 1,
1945, for injury or loss of property, or personal injury or death caused by the negligent or wrongful act or omission of any
employee of the Government while acting
within the scope of his office or employment, under circumstances where the Unit-

435

ed States, if a private person, would be
liable to the claimant in accordance with
the law of the place where the act or omission occurred.
2.

The Supreme Court determined:
The ‘‘Exceptions’’ section of the FTCA
reads: ‘‘[T]he provisions of this chapter’’—
Chapter 171—‘‘shall not apply to TTT [a]ny
claim based upon TTT the exercise or performance TTT [of] a discretionary function
or duty.’’ § 2680(a). The judgment bar is a
provision of Chapter 171; the plain text of

28a
436

917 FEDERAL REPORTER, 3d SERIES

plied in Simmons by its terms does not
apply to dismissals based on the limits of
§ 1346(b), such as the dismissal in this
case and the dismissals explicitly distinguished in the Court’s dictum. See id.
Our decision in Himmelreich v. Fed.
Bureau of Prisons, 766 F.3d 576 (6th Cir.
2014), does not require holding that dismissals under § 1346(b) preclude application of the judgment bar. That decision
was the very court of appeals decision
affirmed on different grounds in Simmons.
In Himmelreich, we determined that ‘‘[a]
dismissal for lack of subject-matter jurisdiction does not trigger the § 2676 judgment bar,’’ because ‘‘in the absence of jurisdiction, the court lacks the power to
enter judgment.’’ 766 F.3d at 579. In its
review of our Himmelreich decision, the
Supreme Court in Simmons affirmed on
narrower grounds, and in dictum reasoned
in a way that logically requires application
of the judgment bar in this case. See Simmons, 136 S.Ct. at 1849. We can hardly be
bound by a rationale that the Supreme
Court rejected on review of the very case
in which we set it forth, in favor of a more
limited rationale (the plain text of § 2680)
that flatly does not apply in the case before us.
It could be argued that the Supreme
Court’s language regarding § 1346(b) dismissals is dictum, whereas our previous
decision in that very case—more broadly
reasoning that neither § 2680 dismissals
nor § 1346(b) dismissals implicate the
judgment bar—is holding, and thus still
binding on subsequent panels in the Sixth
Circuit. Such an argument is anomalous,
however, and at bottom inconsistent with
the theory of stare decisis. ‘‘Dicta’’ encompasses elements of an opinion that are not
the ‘‘Exceptions’’ section therefore dictates
that it does ‘‘not apply’’ to cases that, like
Himmelreich’s first suit, are based on the
performance of a discretionary function.

necessary for the resolution of the case. To
discern the difference between holding and
dictum, we cannot simply rely on what a
given decision purports to hold. Rather, we
determine whether the purported holding
was actually necessary for the resolution of
the case. A subsequent decision issued by
a reviewing court in that same case may
inform whether the purported holding of
the lower court was in fact necessary.
When a lower court rules on a particular
theory and the reviewing court affirms on
narrower grounds, the affirmance can indicate that the broader portion of the lower
court’s theory was unnecessary and therefore dictum—even if the lower court did
not recognize it as such at the time of the
decision.
The litigation in Simmons illustrates the
point. When we decided Himmelreich, we
purported to hold that any dismissal of an
FTCA claim for lack of subject matter
jurisdiction—which would presumably include dismissals under both § 1346(b) and
§ 2680—would not trigger the judgment
bar. See 766 F.3d at 579. On appeal, the
Supreme Court determined that the case
could be resolved on narrower grounds
and affirmed on a theory that precluded
the judgment bar from applying to § 2680
dismissals (the type of dismissal before it),
while permitting in dictum the application
of the judgment bar to § 1346(b) dismissals. See Simmons, 136 S.Ct. at 1849. Once
the Supreme Court made the final decision
in the Himmelreich litigation in Simmons,
the analysis in the court of appeals decision, to the extent that it encompassed
§ 1346(b) dismissals, was effectively rendered dictum, if it was not already dictum.
It was no longer necessary for the ultimate
resolution of the case, since the dismissal
136 S.Ct. at 1847–48.

29a

U.S. v. MADDUX
Cite as 917 F.3d 437 (6th Cir. 2019)

of the FTCA claim in Himmelreich was
based on § 2680 and not § 1346(b).
The Supreme Court, in other words,
took away from the Sixth Circuit opinion
any relevance that its § 1346(b)-related
analysis may have had to the resolution of
the case before it, rendering it the equivalent of dictum with respect to subsequent
cases. The Supreme Court did so, moreover, before the Himmelreich litigation
was final.
This leaves us with Sixth Circuit dictum
that precludes the application of the judgment bar to § 1346(b) dismissals, and wellconsidered subsequent Supreme Court dictum that permits the application of the
judgment bar to § 1346(b) dismissals. The
Supreme Court dictum is far more compelling than our previous inconsistent dictum,
and should be followed.
Accordingly, King’s claims against Allen
and Brownback, as sympathetic as they
are, are precluded by the FTCA judgment
bar.

,
UNITED STATES of America,
Plaintiff-Appellee,
v.
John MADDUX, Jr. (16-6368); Christina
Carman (16-6370); Julie Coscia (166371); Michael E. Smith (16-6726), Defendants-Appellants.
Nos. 16-6368/6370/6371/6726
United States Court of Appeals,
Sixth Circuit.
Argued: May 3, 2018
Decided and Filed: February 26, 2019
Background: Following denial of their
motion to dismiss, 2015 WL 5843257, de-

437

fendants pled guilty or were convicted by
jury of various crimes arising from their
scheme to sell tax-free cigarettes, including conspiracy to commit mail or wire
fraud, conspiracy to launder money, and
conspiracy against United States. The
United States District Court for the Eastern District of Kentucky, No. 0:14-cr00020, David L. Bunning, J., granted in
part one defendant’s motion for judgment
of acquittal, 186 F.Supp.3d 657, and entered judgments of conviction, 2016 WL
5253243, 2016 WL 5253244, 2016 WL
5253245. Defendants appealed.
Holdings: The Court of Appeals, Kethledge, Circuit Judge, held that:
(1) defendants’ concealment of untaxed
cigarette sales from state authorities
constituted ‘‘scheme to defraud’’ states
of tax revenues, within meaning of federal wire and mail fraud statutes;
(2) there was sufficient evidence to support defendant’s convictions for conspiracy to commit mail and wire fraud;
(3) there was sufficient evidence to support defendant’s conviction for conspiracy to commit promotional money laundering;
(4) district court did not abuse its discretion when it chose not to instruct jury
that defendant was not charged with
violating Jenkins Act or Prevent All
Cigarette Trafficking Act;
(5) district court did not plainly err in
instructing jury that ‘‘material omission, such as a failure to file required
reports, may constitute a misrepresentation or concealment under the Mail
and Wire Fraud statutes’’;
(6) district court did not plainly err in
trying defendant with his alleged coconspirators; and

Case: 17-2101

Document: 60-1

Filed: 05/28/2019

Page: 1

30a
No. 17-2101
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED

May 28, 2019
DEBORAH S. HUNT, Clerk

)
)
)
)
)
)
)
)
)
)
)
)

JAMES KING,
Plaintiff-Appellant,
v.
UNITED STATES OF AMERICA, ET AL.,
Defendants,
DOUGLAS BROWNBACK; TODD ALLEN,
Defendants-Appellees.

ORDER

BEFORE: BOGGS, CLAY, and ROGERS, Circuit Judges.
The court received a petition for rehearing en banc. The original panel has reviewed the
petition for rehearing and concludes that the issues raised in the petition were fully considered
upon the original submission and decision of the case. The petition then was circulated to the full
court. No judge has requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied. Judge Rogers would grant rehearing for the reasons
stated in his dissent.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

